<html>
<title> - [H.A.S.C. No. 112-134]ADDRESSING THE IRANIAN NUCLEAR CHALLENGE: UNDERSTANDING THE MILITARY OPTIONS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                         [H.A.S.C. No. 112-134]

                     ADDRESSING THE IRANIAN NUCLEAR

                      CHALLENGE: UNDERSTANDING THE

                            MILITARY OPTIONS

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JUNE 20, 2012







[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








                      U.S. GOVERNMENT PRINTING OFFICE

  75-143                   WASHINGTON : 2012
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6a0d1a052a091f191e020f061a4409050744">[email&#160;protected]</a>  















                   HOUSE COMMITTEE ON ARMED SERVICES
                      One Hundred Twelfth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman
ROSCOE G. BARTLETT, Maryland         ADAM SMITH, Washington
MAC THORNBERRY, Texas                SILVESTRE REYES, Texas
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
W. TODD AKIN, Missouri               MIKE McINTYRE, North Carolina
J. RANDY FORBES, Virginia            ROBERT A. BRADY, Pennsylvania
JEFF MILLER, Florida                 ROBERT ANDREWS, New Jersey
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
MICHAEL TURNER, Ohio                 RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVE LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               CHELLIE PINGREE, Maine
ROB WITTMAN, Virginia                LARRY KISSELL, North Carolina
DUNCAN HUNTER, California            MARTIN HEINRICH, New Mexico
JOHN C. FLEMING, M.D., Louisiana     BILL OWENS, New York
MIKE COFFMAN, Colorado               JOHN R. GARAMENDI, California
TOM ROONEY, Florida                  MARK S. CRITZ, Pennsylvania
TODD RUSSELL PLATTS, Pennsylvania    TIM RYAN, Ohio
SCOTT RIGELL, Virginia               C.A. DUTCH RUPPERSBERGER, Maryland
CHRIS GIBSON, New York               HANK JOHNSON, Georgia
VICKY HARTZLER, Missouri             BETTY SUTTON, Ohio
JOE HECK, Nevada                     COLLEEN HANABUSA, Hawaii
BOBBY SCHILLING, Illinois            KATHLEEN C. HOCHUL, New York
JON RUNYAN, New Jersey               JACKIE SPEIER, California
AUSTIN SCOTT, Georgia
TIM GRIFFIN, Arkansas
STEVEN PALAZZO, Mississippi
ALLEN B. WEST, Florida
MARTHA ROBY, Alabama
MO BROOKS, Alabama
TODD YOUNG, Indiana
                  Robert L. Simmons II, Staff Director
                 Alex Gallo, Professional Staff Member
                Michael Casey, Professional Staff Member
                    Lauren Hauhn, Research Assistant













                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2012

                                                                   Page

Hearing:

Wednesday, June 20, 2012, Addressing the Iranian Nuclear 
  Challenge: Understanding the Military Options..................     1

Appendix:

Wednesday, June 20, 2012.........................................    43
                              ----------                              

                        WEDNESDAY, JUNE 20, 2012
 ADDRESSING THE IRANIAN NUCLEAR CHALLENGE: UNDERSTANDING THE MILITARY 
                                OPTIONS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Albright, David, President, Institute for Science and 
  International Security.........................................     9
Rademaker, Stephen, Task Force Member, National Security Project, 
  Bipartisan Policy Center.......................................     5
Robb, Charles, Task Force Co-Chair, National Security Project, 
  Bipartisan Policy Center.......................................     3

                                APPENDIX

Prepared Statements:

    Albright, David..............................................    71
    McKeon, Hon. Howard P. ``Buck''..............................    47
    Rademaker, Stephen...........................................    61
    Robb, Charles................................................    49

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Brooks...................................................    85
    Mr. Forbes...................................................    85
    Mr. Turner...................................................    85

Questions Submitted by Members Post Hearing:

    Mr. Franks...................................................    90
    Ms. Hanabusa.................................................    93
    Mr. Kissell..................................................    92
    Mr. Langevin.................................................    89
    Mrs. Roby....................................................    93
    Ms. Speier...................................................    95
 
 ADDRESSING THE IRANIAN NUCLEAR CHALLENGE: UNDERSTANDING THE MILITARY 
                                OPTIONS

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Wednesday, June 20, 2012.
    The committee met, pursuant to call, at 10:01 a.m. in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    Good morning, ladies and gentlemen. The House Armed 
Services Committee meets today to receive testimony from 
experts on the nuclear challenge from Iran.
    The expert panel includes former Senator Charles Robb, a 
task force co-chair of the National Security Project with the 
Bipartisan Policy Center; Mr. Steven Rademaker, a task force 
member of the National Security Project with the Bipartisan 
Policy Center; and Mr. David Albright, the President of the 
Institute for Science and International Security.
    Gentlemen, thank you all for being here today.
    The Iranian nuclear program is among the most complex 
foreign policy and national security challenges that the United 
States faces today. Intensive diplomatic and economic steps 
focused on Iran's nuclear program have been undertaken over the 
last decade to dissuade Iran from pursuing a military nuclear 
program. Unfortunately, it does not appear that these efforts 
have succeeded in convincing the Iranians to abandon its 
military nuclear ambitions.
    The United States' stated policy remains that Iran should 
not process a nuclear weapon, as reflected by President Obama's 
recent comments in which he stated, ``I think both the Iranian 
and Israeli governments recognize that when the United States 
says it is unacceptable for Iran to have a nuclear weapon, we 
mean what we say.'' Moreover, President Obama has explicitly 
declared that his Administration would use force--a ``military 
component''--as a last resort to prevent Tehran from acquiring 
a bomb. However, this message has not always been consistent 
across administrations, and, unfortunately, it is not clear 
that the Iranian regime is deterred by such statements.
    I personally agree that all elements of national power 
should be brought to bear to prevent Iran from obtaining a 
nuclear weapon. I certainly recognize that no military 
operation is without risk, but given the fact that the 
President has stated that military options may have to be 
utilized to thwart Iran from obtaining a nuclear weapon, it is 
the committee's responsibility to ensure that the military 
option is credible. Moreover, any consideration of a U.S. 
military response to Iran's nuclear developments requires 
rigorous and thoughtful evaluation, which is why we are holding 
this hearing today.
    If diplomacy and economic sanctions fail to stop Iran from 
obtaining a nuclear weapon capability, then a military option 
may be the only recourse. Therefore, it is critical to 
rigorously study and understand all facets of any military 
option, including how it supports our vital national security 
interests, its potential for effectiveness, its risks, Iran's 
potential responses, the implications for the region.
    Likewise, effective military capability in the region could 
be a useful deterrent and improve regional stability, negating 
the need for a military strike.
    Gentlemen, thank you for appearing before the committee 
today, and I look forward to your testimony and insights into 
the nuclear challenge from Iran.
    Mr. Smith.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 47.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. I thank you, Mr. Chairman. And I think your 
opening remarks set the stage very well.
    And I do look forward to the testimony. This is a very 
thorny and difficult problem. We need all the expert advice we 
can get. So we are very happy to have you gentlemen here today, 
and, as I said, we look forward to your testimony.
    It is not an easy problem, because we all recognize the 
fact we do not want Iran to have a nuclear weapon. I think 
there is bipartisan agreement on that. Certainly, the President 
has stated his policy very strongly, and so have the national 
security leaders in the Republican Party that containment is 
not an option. We can't say it is okay if Iran gets a nuclear 
weapon and then we will figure out how to deal with it. It is 
our policy to stop them from getting a nuclear weapon and to 
put all options on the table, including the option of military 
action if that is necessary, to achieve our policy of stopping 
Iran from getting a nuclear weapon.
    The difficulty, of course, is that the military option is 
costly and risky, and there is not even a guarantee that it 
would necessarily stop Iran from developing the nuclear weapon. 
It is worth noting that even the very much celebrated military 
option that Israel used against Iraq in the early 1980s 
ultimately did not stop Iraq, as we discovered when we went in 
in 1991. They were much further along toward a nuclear weapon 
than we had even realized.
    So the risks of the military option are very real, not to 
mention the potential for destabilizing the region in a full-
scale war that I don't think any of us want and certainly no 
one in the region wants, which is why it is so critical that we 
be as aggressive as possible on the sanctions side to put 
maximum pressure on Iran to force them to the negotiating table 
and force them to not take this step.
    I think it is also, however, worth noting that Iran has not 
yet said, ``We are building a nuclear weapon.'' And all of the 
expert testimony we have received has said they have not 
stepped across that line. In fact, I am always mindful of the 
fact that--and I could be off a little bit here, but I think it 
was 7 years ago when I first heard that Iran would have a 
nuclear weapon within 6 months. They didn't, and they don't.
    And it is a very complicated decision for Iran to figure 
out whether or not to step across that line. Our job is to make 
sure that they understand clearly the maximum cost that they 
will pay if they do step across that line, both in terms of 
sanctions and in terms of saying that the military option 
remains on the table.
    But given all the risks associated with the military 
option, it is my opinion that right now we need to aggressively 
pursue the sanctions and diplomacy option and should not 
lightly walk away from that option. Because the consequences of 
walking away from that option are either, A, Iran gets a 
nuclear weapon or, B, we face the possibility of a war that 
none of us want.
    It is not an easy problem to solve. I don't think we are 
going to solve it this morning. But I do look forward to the 
testimony because it is something that every Member of this 
committee needs to get a very strong understanding of. These 
are critical, critical policy decisions going forward.
    I thank you, Mr. Chairman, and I yield back.
    The Chairman. Thank you.
    Senator Robb, we will hear from you first, then Mr. 
Rademaker, then Mr. Albright, please.
    Senator.

   STATEMENT OF CHARLES ROBB, TASK FORCE CO-CHAIR, NATIONAL 
           SECURITY PROJECT, BIPARTISAN POLICY CENTER

    Mr. Robb. Thank you, Mr. Chairman and Mr. Smith and Members 
of the committee.
    I would have to observe from your opening statements that I 
don't think this is going to be a particularly contentious 
hearing. And we appreciate very much the fact that, in crafting 
your legislation, you have borrowed or at least used some of 
the phraseology and certainly some of the intent and 
explanation that we had included in some of our reports.
    I am here, as is Steve Rademaker, representing the 
Bipartisan Policy Center. This was formed in 2007 by four 
former majority leaders over on the other side of the Hill: 
Howard Baker and Bob Dole on the Republican side and George 
Mitchell and Tom Daschle on the Democratic side. And it has 
been working to find ways to promote evidence-based, 
politically viable solutions to some of the most pressing 
policy challenges that face our country. And, certainly, this 
particular challenge is as serious as anything we are facing 
today.
    I have had the privilege of co-chairing the Iran Nuclear 
Task Force for the last 4 years. Initially, the co-chair on the 
other side was Dan Coats when he was a former Senator. When he 
opted to return to the Senate, General Chuck Wald has been the 
co-chairman since that period of time.
    But the Bipartisan Policy Center always works in a 
bipartisan way so that members of both sides of the aisle are 
represented and tries to work in ways that advance the causes 
rather than gets bogged down in what sometimes would be 
described as the political crossfire. But we don't attempt to 
run away from the tough issues it faces.
    Our first task force, as a matter of fact, 4 years ago 
included two members, Dennis Ross and Ash Carter, who were 
subsequently asked by President-elect Obama to come into his 
Administration. But we have had bipartisan representation on 
the committee at all times. Our current committee has four 
former Democratic Members of Congress. It has three retired 
four-star generals and admirals, and specific policy experts, 
like Steve Rademaker on my left, who will be testifying 
momentarily, and others who constitute a group of people who 
are experienced and understand the challenges.
    There is, as you said and as Mr. Smith said, there is 
widespread agreement that preventing Iran nuclear weapons 
capability is our most urgent national security challenge, but 
there is less agreement on how best to meet that challenge. 
Despite sanctions, Stuxnet, and now Flame, Iran continues to 
enrich uranium faster and to higher levels than ever before. A 
peaceful, viable, negotiated solution has always been, in our 
judgment, in the United States' best interest. But the dual 
approach of diplomacy and sanctions simply have not proved to 
be enough. We need the third track, and that is credible and 
visible preparations for a military option. An additional 
leverage is the only way to enable a peaceful and negotiated 
credible settlement, in the view of this particular task force.
    History shows us that the best chance for inducing Iran 
concessions is when it is in a dire and military threat. The 
Iran-Iraq war is one example. More recently, Iran suspended its 
nuclear program in 2003 after Saddam Hussein was toppled. It is 
the credible threat of force when pursued together with 
diplomacy and sanctions that proves the best hope for peace, in 
the judgment of this particular task force.
    The three components of a military threat are: first, an 
information and messaging strategy, sending strong public 
signals about American resolve and visible preparation for 
potential conflict. Congress can certainly help the U.S. public 
in a serious and frank discussion of the risk of a nuclear-
capable Iran by holding hearings on this subject, just as you 
are doing today, and we applaud the committee for holding this 
hearing.
    Second, economic preparations. The U.S. has to work to 
mitigate the economic impact of a strike on Iran's nuclear 
capability, which would undoubtedly halt Iran's oil exports, at 
least temporarily. And the DOE [Department of Energy] needs to 
conduct a study to determine a realistic rate of release for 
the Strategic Petroleum Reserve.
    The third element is credible military readiness 
activities, like augmenting the Fifth Fleet's capacity by 
procuring and deploying force-protection munitions to defend 
U.S. naval forces against potential Iranian retaliation; by 
prepositioning military supplies across the region, including 
strategic bombers, bunker-buster munitions and fuel; by 
exploring strategic partnerships with countries on Iran's 
northern perimeter, such as Azerbaijan; by conducting broad 
military exercises with the regional allies--some of these 
things have been done, are being done; by strengthening the 
U.S. Air Force capabilities for an effective strike, including 
expediting production and deployment of the Massive Ordnance 
Penetrator; by augmenting Israeli offensive and defensive 
capabilities, including the sale to Israel of three KC-135 
aerial refueling tankers and 200 GBU-31 bunker-busting 
munitions needed and whatever missile defense systems are 
needed.
    We are not urging Israel to take unilateral military action 
against Iran's nuclear facilities, but we need to make their 
capability to do so stronger so that Iran will take that threat 
more seriously.
    Mr. Chairman, we are not advocating another war in this 
region. We would like to see this perilous situation resolved 
peacefully. We applaud the President for offering an open hand 
to a closed fist in his very first few minutes as President, 
but diplomacy simply hasn't done the job. Iran has refused to 
negotiate in good faith, while it continues to ignore U.N. 
[United Nations] resolutions, threatens to wipe out our 
strongest ally in the region off the face of this earth, and 
keeps those centrifuges spinning.
    Our Nation's credibility is at stake. Two successive 
administrations have said that a nuclear-weapons-capable Iran 
is unacceptable and that all elements of our Nation's power 
will be employed to keep it from happening. Merely talking 
about red lines and keeping everything on the table, however, 
is not by itself enough. We have to have the resolve to act if 
necessary, or our ability to protect our allies, much less our 
own interests in the region and around the world, will be 
dramatically reduced and will simply kill the NPT [Nuclear Non-
Proliferation Treaty]. It will cause nations like Saudi Arabia, 
Egypt, Turkey, and other regional partners to feel compelled to 
initiate their own nuclear programs, and we will end up with 
two nuclear states, without a neutral intermediary, facing what 
could be Armageddon.
    That may be a slightly overdramatic summary of what we see 
as the problem, but there is bipartisan agreement on the 
challenge that we face. And we very much appreciate the fact 
that this committee has invited us to come and share some 
thoughts and to respond to whatever questions you and the other 
Members of the committee may have.
    With that, Mr. Chairman, I will turn it over to Steve 
Rademaker to take up some of the technical questions.
    [The prepared statement of Mr. Robb can be found in the 
Appendix on page 49.]
    The Chairman. Thank you.
    Mr. Rademaker.

  STATEMENT OF STEPHEN RADEMAKER, TASK FORCE MEMBER, NATIONAL 
           SECURITY PROJECT, BIPARTISAN POLICY CENTER

    Mr. Rademaker. Thank you, Mr. Chairman, and thank you, Mr. 
Smith, for the opportunity to testify before you today on this 
very important subject.
    It has been my privilege for over 4 years now to serve with 
Senator Robb and some other very distinguished individuals on 
the Bipartisan Policy Center's Task Force on Iran. And I am, 
again, grateful for the opportunity to be able to present some 
of our findings and recommendations to you today.
    We issued our first report in September of 2008, and, at 
that time, we concluded that ``a nuclear-weapons-capable Iran 
is strategically untenable.'' And that was carefully negotiated 
language within our task force, as Senator Robb knows. And we 
also recommended a triple-track strategy for addressing that 
threat. And as Senator Robb indicated, those three tracks are 
diplomacy, sanctions, and the credible threat that, should the 
first two tracks fail to solve the problem, military force 
could be used.
    The consistent view of our task force over the last 4 years 
as we have issued successive reports on this issue has been 
that, of the three tracks that we recommend, the third one, the 
threat that force would be used if the other tracks fail, is 
the most underdeveloped of the three tracks. And by that, I 
think I would stress that it is pretty evident that the United 
States is interested in a diplomatic solution. Our negotiators 
have been in Moscow this week seeking to achieve a negotiated 
settlement to this problem. So I don't think the Iranians doubt 
that there is a willingness on the part of the United States to 
engage in diplomacy on this.
    Likewise, sanctions. Both the Obama administration and the 
U.S. Congress have been actively seeking to tighten U.S. 
sanctions on Iran. And in that regard, I do want to say as a 
former congressional staffer, I think the role of the United 
States Congress in tightening U.S. sanctions has been 
absolutely critical. And I know there is additional sanctions 
legislation pending, but I think it is something that has been 
and will continue to be essential to bringing the kind of 
pressure to bear on Iran that will be needed to bring about a 
solution to this problem.
    But, again, we feel that the third element is, at this 
point, underdeveloped. And by that, I think what we mean is 
that we don't think that Iran is sufficiently persuaded that 
military force really is in prospect should they fail to come 
to an acceptable solution, an acceptable agreement to the 
problem. And our most recent report, issued in February, 
outlines some measures that we think would be necessary to make 
that threat more credible to the Iranians. And, in our 
judgment, should we succeed in doing that, the likelihood of a 
successful diplomatic solution would increase.
    Senator Robb has outlined what some of those steps might 
be, and I am not going to belabor them again, except to echo 
him in saying that the role of this committee has been very 
helpful on that. The provisions you included in the National 
Defense Authorization Act that are consistent with some of the 
recommendations we made in February I think are very important 
and very timely, and I hope that the Senate will agree to them 
when you ultimately reach conference on that bill.
    Now, the real focus of my testimony is to be not so much on 
the steps that the U.S. might take to increase the credibility 
of the third track but, rather, to focus on the nature of the 
Iranian threat. And there I need to make a point at the outset 
that for Iran, as for any country that seeks nuclear weapons, 
the biggest challenge is obtaining the fissile material 
necessary to produce a weapon. And that is typically either 
enriched uranium or plutonium. And that is why Iran's uranium-
enrichment program is so critically important, because that is 
the pathway that they have developed that would enable them to 
produce the fissile material that they would need for a weapon.
    And so, ever since that program was discovered in 2002, it 
has been the focus of international efforts to get them to end 
their uranium-enrichment program. And I note in that regard 
that since 2006 their continued operation of that program has 
been illegal under international law, because beginning in 
2006, the U.N. Security Council began adopting binding 
resolutions demanding that--legally binding resolutions 
demanding that Iran suspend uranium enrichment. And, at this 
point, a total of six such resolutions have been adopted by the 
U.N. Security Council. Iran has simply ignored all those 
resolutions. But the upshot is that what Iran is doing today is 
a violation of international law.
    At the Bipartisan Policy Center, we have monitored the 
progress of Iran's enrichment program because that is a good 
measure of the degree to which they are succeeding in achieving 
the nuclear weapons capability that we said is untenable in our 
first report. And we are very much assisted in trying to 
monitor that program by the work of the International Atomic 
Energy Agency because they issue quarterly reports on the 
progress of Iran's enrichment program.
    The most recent IAEA [International Atomic Energy Agency] 
report came out on May 25th of this year, and in some ways it 
is the most troubling of any of the reports we have seen in 
recent years. It indicated that, as of May, Iran had produced 
3,345 kilograms of uranium enriched to 3.5 percent. That is 10 
times as much enriched uranium as they had at the time we 
issued our first report in 2008. And with further enrichment, 
we calculate that that is enough 3.5-percent enriched uranium 
to produce at least two nuclear weapons. I believe David 
Albright's organization estimates that is actually enough for 
five nuclear weapons. But it is a substantial amount of 
enriched uranium that they have accumulated at this point.
    The rate at which they are producing enriched uranium, 
according to the last report, is the highest rate ever. It was 
158 kilograms per month, which is 37 percent higher than they 
had achieved in any previous reporting period. And it is three 
times the rate of production prior to the Stuxnet virus, which 
many people have suggested somehow crippled their program. But 
today they are enriching uranium three times faster than they 
were able to enrich it prior to Stuxnet. So Stuxnet may have 
set them back but not by very much, at least not sufficiently.
    They are operating more centrifuges today than ever, 
although the increase in the number of centrifuges in the last 
reporting period was very modest. And, as a result, that 37 
percent increase in the production rate wasn't because they had 
deployed additional centrifuges. It is because they are 
managing to operate their existing centrifuges more 
efficiently, which is, in some ways, even more troubling than 
deploying additional centrifuges.
    They are also enriching to a higher level, the 20-percent 
level, which gets them closing to bomb-grade enriched uranium. 
And their production rate of that was 25 percent higher during 
the last reporting period, 25 percent higher than in any 
previous reporting period. Taken together with what they are 
doing in uranium enrichment, they are now able to produce at 
least one bomb's worth of enriched material every year, enough 
3.5-percent enriched uranium to ultimately produce a weapon 
with it with further enrichment.
    Also troubling, in the last report, the IAEA revealed that 
they had discovered uranium particles enriched to the level of 
27 percent, which is a higher level than Iran has declared that 
it is prepared to enrich to. The meaning of that is not readily 
apparent, but it certainly underscores that Iran has the 
ability to enrich to much higher levels than 20 percent.
    And you may have noted yesterday, their negotiator in Iran 
insisted that they have an inalienable right under 
international law to enrich to whatever level they want to. And 
they have demonstrated that they are prepared to go--or, at 
least, they can go above 20 percent.
    As a result of all of the progress that has been measured 
by the IAEA, it is clear that Iran could produce a nuclear 
weapon very quickly should it wish to do so. The Bipartisan 
Policy Center has engaged an expert in this area named Gregory 
Jones, and he has undertaken a number of calculations for us. 
He calculates that with their existing stockpile of enriched 
material, they could, if they were bound and determined to do 
it, produce enough fissile material for a nuclear weapon within 
35 to 106 days. From a decision to go forward, it would take 
them 35 to 106 days to actually have the fissile material for a 
weapon. I think David Albright's organization calculates a 
slightly different number. They estimate 4 months, I believe, 
or 120 days--a slight difference there but not a profound 
difference, I would argue.
    Also, according to Gregory Jones' calculation, this more 
highly enriched uranium, this 20-percent enriched uranium, by 
the end of this year they are predicted to have enough of that 
that, with further enrichment of just that 20-percent material, 
they could have a weapon within 8 days, should they wish to go 
full speed in that direction. Again, David Albright's 
organization comes up with a slightly different number for 
that. I think your number is 30 days, but--minimum of 30 days 
to produce a weapon. Not today, but probably by the end of the 
year.
    Anyway, we don't throw these numbers out because we predict 
that Iran is going to do these things. In fact, there are a lot 
of reasons why it wouldn't make much sense for Iran to proceed 
in that manner. But it does provide a measurement of their 
progress and how far they have come in the direction of 
achieving the nuclear weapons capability that we have contended 
for 4 years now would be strategically untenable.
    And I think, with that, I will end my testimony and 
entertain questions after the testimony of Mr. Albright.
    [The prepared statement of Mr. Rademaker can be found in 
the Appendix on page 61.]
    The Chairman. Thank you.
    Mr. Albright.

 STATEMENT OF DAVID ALBRIGHT, PRESIDENT, INSTITUTE FOR SCIENCE 
                   AND INTERNATIONAL SECURITY

    Mr. Albright. Thank you, Mr. Chairman and Mr. Smith, for 
giving me the opportunity to testified today.
    I agree with my colleagues----
    The Chairman. Is your mike on?
    Mr. Albright. Is it on? Is it better now?
    The Chairman. Yes.
    Mr. Albright. I think it was on; I wasn't close enough.
    I agree with my colleagues and with you that one of the 
greatest national security challenges facing the United States 
is Iran's nuclear effort. We really don't know if they are 
going to decide to build a nuclear weapon, but the indications 
are at least that they are on a trajectory to do so. I 
personally believe that they are being deterred now from moving 
forward. They would be much further along now if there hadn't 
been this deterrence and also a great deal of actions that have 
slowed down their program.
    Now, does that mean that we can find a negotiated solution 
that provides assurance that Iran will not build nuclear 
weapons? And, like many, I am not sure about that. I do have 
hopes. And I think that is the correct course of action, is to 
pursue negotiations.
    As was pointed out, President Obama has stated that the 
U.S. will prevent Iran from getting nuclear weapons. And that 
policy means that if Iran moves to build nuclear weapons, the 
United States will act to stop it from succeeding. I think that 
is fairly clear. And I also believe that he means it when he 
says that military options are on the table, and I would judge 
that he probably would use them. And so I view his threat of 
military actions as genuine.
    Now, as the point has been made, though, there has been 
little discussion of the implementation or implications of this 
U.S. policy. And, clearly, military strikes are risky, 
potentially very costly, could start a war that we don't want. 
And there is also no easy military way to end Iran's nuclear 
program. Surgical strikes, I would argue, will simply not work, 
at least by themselves. A sustained widespread bombing attack 
can likely stop an Iranian breakout to build nuclear weapons. 
And that is really dependent on the current status and nature 
of Iran's nuclear program today and as we would envision it 
would be in the next year or so.
    But how will Iran respond? As I said, will we enter a 
lengthy war? And what do we do the day after military strikes 
or even a campaign? And, certainly, I am no expert on the first 
two, judging whether Iran will launch a war or trying to figure 
out exactly their response. But I would like to make one 
statement about the last question, that if military strikes do 
occur, despite all attempts to avoid them, and it follows an 
Iranian breakout, there is a real necessity to try to figure 
out a way or a strategy that would impose conditions on Iran to 
ensure that it does not try to build nuclear weapons in the 
future, that we can't just bomb and walk away. And so I think 
that is an extreme challenge but an absolutely necessary one to 
consider and start putting into place long before we think of 
actually carrying out any kind of military strike, if that is 
the way it develops.
    Now, one question I was asked to look at is, will the 
President know if Iran moves to build nuclear weapons in the 
immediate future? And I would say that it is extremely 
important to know if Iran can, in a sense, sneak out, where we 
don't have any idea that they have built nuclear weapons. And I 
think our assessments would say, not in the near future. And I 
would put the timeframe as this year and next that the 
President will likely know. And, again, it is because of the 
current status of Iran's nuclear program.
    Moreover, the U.S. will have enough time for a range of 
responses. Although, as time progresses, these response times 
will likely start to shrink absent either a negotiated 
reduction in Iranian nuclear capabilities or other actions that 
precipitate a slowdown in Iran's nuclear programs. And that 
could be caused by themselves.
    And a key consideration in evaluating U.S. policy is the 
timeline for Iran to acquire nuclear weapons following the 
decision to do so. And Steve has talked about these various 
timelines, and I would like to just go through some of ours. He 
actually did capture most of them, but I would like to just 
expand on them a little bit.
    Right now, we think that Iran would need about a year, give 
a couple of months, to actually build a crude nuclear 
explosive, and longer if it needed to put one on a missile. It 
could be significantly longer than a year. But as Steve pointed 
out, the long pole in the tent of an Iranian effort is Iran's 
lack of sufficient weapon-grade uranium. We assess that they 
don't have any in sufficient quantity for a bomb and that that 
remains their priority if they were to break out.
    Now, there is a question, is one weapon enough? And in 
discussing breakout, many argue that they wouldn't even try 
until they had enough, or a pathway, and I would say a pathway 
in order to get several nuclear weapons. And one component is 
low-enriched uranium, but there are other components to that 
pathway also that Iran needs to put in place. And an ideal 
pathway for them is a secret centrifuge plant, fully 
operational, outfitted with advanced centrifuges able to 
produce weapon-grade uranium at a far faster rate than they are 
today. And I will mention that, at the end, they are not there 
yet, and we don't think they will be for at least a year, if 
not longer.
    So Iran is limited in its ability to break out. And, as 
Steve pointed out, it would depend on the stock of LEU [low-
enriched uranium] to speed up its, you know, what is often 
called the dash to the bomb. Because we don't think they have a 
secret centrifuge plant, they are going to have to use their 
existing centrifuge plants to carry out a breakout. And today, 
if Iran decided to build a nuclear weapon, decided to dash to 
weapon-grade uranium, we think would it take Iran at least 4 
months in order to have sufficient weapon-grade uranium for a 
nuclear explosive device.
    Our calculations are done by a University of Virginia 
faculty member of the engineering department who used to head 
the U.S. centrifuge program, or at least the theoretical 
division, I am sorry, of the centrifuge program, and has 
decades of experience doing these calculations. And one of the 
things that he emphasizes--his name is Houston Wood. But one of 
the things he emphasizes is that there is a lot of problems in 
making weapon-grade uranium. A lot of inefficiencies develop as 
you try to do that that slow you down. And that is one of the 
reasons why we are at 4 months. I think Greg Jones is at a 
lower rate, although his upper bound is in response, I think, 
to our prodding on this issue, and we appreciate that.
    But, nonetheless, it is a challenging chore, and the 
theoretical calculations suggest a longer period of time 
necessary. And that is setting aside the inherent problems in 
these types of Iranian centrifuges. They call it the IR-1. It 
actually dates back to a Dutch centrifuge built in the 1970s 
that was stolen by a Pakistani and then eventually delivered to 
Iran. And that centrifuge lost out in the competition inside 
this enrichment program in Europe to a German design. And the 
reason it lost out is it breaks a lot.
    And that has been one of the persistent problems with the 
Iranian centrifuge program, is unexpected stoppage of 
centrifuges and breakage, excessive breakage, of the 
centrifuges. And if you are rushing to make weapon-grade 
uranium, your supplies of, let's say, 20 percent are just 
enough, you may not end up with enough weapon-grade uranium 
once you start turning on those centrifuges to make the weapon-
grade uranium.
    There are a lot of problems. And I can go into more detail 
about that, but it is one of the reasons we think Iran will not 
break out soon but is concentrating on developing advanced 
centrifuges which are based on the German design that beat out 
this Dutch design. And that Iran is trying in its own way, 
modifying it to try to develop that.
    Now, Steve mentioned the 20 percent and that is what we are 
all watching because again, the closer you get, the faster you 
can get to weapon-grade uranium. And so we are watching that. 
We agree with their estimates, end of this year, early next 
year, they could have enough of this--it is near 20 percent, we 
call it for a nuclear weapon in the sense that if further 
enriched they would have enough weapon-grade uranium.
    However, in our calculations--again, these are based on 
Houston Wood's calculations--we see that they are going to need 
a longer time. And if they want to do a rapid breakout, down to 
a month, let's say--and this, again, is in theory; we view it 
as a minimal--they are going to have to use the Natanz fuel-
enrichment plant to do that. Fordow will not do it fast enough. 
And we are not even sure how many centrifuges will be at Fordow 
at that time. It may not be fully outfitted. And so you may be 
talking months and months to break out at Fordow at the start 
of next year.
    Now, at Natanz, they can do it much quicker because they 
have many, many more centrifuges there. But Natanz remains very 
vulnerable to military strikes, and this breakout will be 
detected. It may not be the first day or the first week, but 
certainly by the second week, third week, either IAEA 
monitoring or U.S. intelligence will likely detect this kind of 
breakout and be able to respond. So I think even as the 
response times come down, there is still time to respond 
promptly. But I will grant that detection of a breakout becomes 
more difficult and the preparation for response needs to be 
accelerated.
    Now, one of the issues we are wrestling with is if Iran can 
built a secret centrifuge plant and develop the advanced 
centrifuges. Right now, Iran is having trouble with its 
advanced centrifuges. One of the benefits of sanctions has been 
forcing them to face material shortages of raw materials. They 
have been forced to make design changes in the centrifuge 
design. In the case of one that they have been trying to 
develop, it looks like the centrifuge may not work because 
their design change may be flawed. They are having a hard time 
getting certain raw materials that allow them to build large 
numbers of these modified advanced centrifuges.
    And so we can't predict when they will succeed, but, again, 
the program is moving much slower than I think we expected, and 
we expect delays to continue. But, nonetheless, at some point 
they will succeed. And I think in our own estimations, the end 
of next year becomes a much bigger problem in order to 
predict--or let me say this, detect and respond to an Iranian 
breakout.
    In our own assessments, we feel pretty confident that the 
next year the President will clearly detect a breakout. 
Breakout times will be sufficiently long to allow a response. 
And what that would do, we think, is will deter Iran from even 
trying, because they understand that the United States military 
response could actually stop their ability to build nuclear 
weapons.
    Now, we certainly would recommend that whatever efforts can 
be done to improve our detection capabilities, either through 
the IAEA insisting on better safeguards at the enrichment 
plants--in a sense, they are there more often, so they can 
detect a diversion more quickly, I think is very desirable. 
U.S. intelligence capability certainly should be--and you would 
obviously do this--supported to improve detection times. And so 
I think there is a range of those kinds of things that need to 
be done.
    Now, the twin goals should be preventing Iran from getting 
nuclear weapons while avoiding military actions. And I believe 
this can be done, but more needs to be done to ensure that both 
goals are accomplished. And I would agree with my colleagues 
that, ironically, to prevent war, Iran must believe in its 
heart that the U.S. will strike if it moves to build nuclear 
weapons. And I think in doing that, the United States can deter 
Iran from even trying. But, nonetheless, this puts U.S. policy 
on a knife's edge.
    So thank you very much.
    [The prepared statement of Mr. Albright can be found in the 
Appendix on page 71.]
    The Chairman. Thank you.
    Senator Robb and Mr. Rademaker, enhancing the credibility 
of the military option, such as prepositioning military assets 
and supplies in the regions, as you advocate in your BPC 
[Bipartisan Policy Center] report, in concert with vigorous 
diplomacy and crippling economic sanctions should be a key 
component of the overall strategy to prevent Iran from 
obtaining a nuclear weapon capability.
    Representative Conaway, a Member of the committee here, 
introduced a bill, H.R. 4485, that reflects many of the BPC's 
recommendations. Much of the bill was incorporated as part of 
this year's Defense Authorization Act, which we have passed 
through the House. We are waiting for the Senate to take their 
action.
    Do you support these legislative actions? And are there 
other specific legislative actions that the U.S. Congress 
should be taking to enhance the credibility of the military 
option?
    Mr. Robb. Mr. Chairman, we support those aspects----
    The Chairman. Is your mike on?
    Mr. Robb. It is not. Thank you, Mr. Chairman.
    Mr. Chairman, we support those aspects of the defense 
authorization bill that incorporate the recommendations that 
have been made by the Bipartisan Policy Center. We would not, 
since we have not taken up some of the other provisions of the 
defense authorization bill, would not comment on those.
    But we, number one, support and appreciate the fact that 
this committee has taken the recommendations that were 
contained in this, which is our most recent publication--I 
brought two of the other publications with me. I couldn't find 
the third in that list of publications. But while there have 
been tweaks and variations that have been discovered with 
additional intelligence, with additional technical 
understanding of the issues, the reports have really been 
consistent.
    And so, to the extent that the language that you have 
included adopts language which is either very similar to or at 
least supports the same approach, we are very much in support 
of that provision of the defense authorization bill that you 
have crafted.
    The Chairman. Thank you.
    Mr. Rademaker. Yes, if I could add to that, we were very 
much gratified to see Mr. Conaway's bill and the decision of 
this committee to incorporate much of that bill into your 
Defense Authorization Act.
    In response to your question of whether there is more that 
Congress could do, the answer is, yes, there is more that 
Congress could do.
    One of our other recommendations related to strengthening 
the credibility of the Israeli military threat against Iran, as 
well as the U.S. military threat--and I am pleased to say that 
those recommendations have also been picked up in legislation 
that has already passed the House of Representatives. That was 
a bill, H.R. 4133, that was cosponsored by Mr. Cantor, the 
majority leader, and Mr. Hoyer, the Democratic whip. It was 
called the United States-Israel Enhanced Security Cooperation 
Act of 2012. And among other things, it called on the United 
States to provide Israel with additional aerial refueling 
tankers, missile defense capabilities, and specialized 
munitions such as bunker busters. And, again, that was one of 
our recommendations in our most recent report.
    So, hopefully--that bill is now before the Senate, or 
corresponding legislation is before the Senate. And, last week, 
the Senate Foreign Relations Committee unanimously voted it out 
of committee. So I think there is a good chance that this is 
one bill that will actually reach the President's desk.
    The Chairman. Good.
    Some have suggested that Congress should pass an 
Authorization for the Use of Military Force to prevent Iran 
from obtaining a nuclear weapon, thereby sending a signal that 
Congress supports all options at the President's disposal. 
Others might say that this legislative action is premature and 
too provocative.
    In your view, under what circumstances would an 
authorization for the use of military force be appropriate?
    Mr. Robb. Well, Mr. Chairman, to the extent that any bill 
passed by Congress supports the President's ability to carry 
out whatever military actions that he and the Defense 
Department, in consultation with Congress, hopefully, in all 
areas, believes is necessary, we would support.
    If the bill were to actually require a specific either 
declaration of--would provide a specific declaration of war or 
would require a time specific for action to be taken without 
some leeway for discretion and the evaluation of the 
circumstances, we would not suggest--or at least on the basis 
of my own judgment, I think it would be unwise to attempt to 
tie the President's hands. But to the extent that you 
demonstrated that Congress is fully supportive of his using all 
of the powers that are available to him to carry out the 
mandate that has been put before the international community, 
and for a failure to respond on the part of Iran, we would 
support that--or I would support that. Again, this specific 
question does not come to the full Bipartisan Policy Center or 
to the task force, so I am speaking only for myself. But I 
would be supportive of anything that gives evidence of support.
    Because, at this point, the credibility of the United 
States is the most important factor that is being questioned. 
There is no question, I don't think, in the minds of the 
Iranian Government or the international community that the 
United States has the capability to inflict serious damage. No 
one is suggesting that they can wipe out the program all 
together, but they can certainly inflict serious damage which 
would slow it down and would cause very significant actions and 
reactions to occur.
    But the question is whether or not the United States would, 
in fact, initiate such action. And that is one of the reasons 
that we have placed so much emphasis, from the very beginning, 
on credible, visible preparation to indicate not only an 
ability but a willingness.
    And if we fail to follow through with respect to our 
credibility in this area, any attempt we might make to resolve 
other questions in this area or around the world, all of our 
treaty obligations, all of our understandings with allies on 
both ends of this particular question would immediately be 
subject to intense scrutiny and doubt, which would, in our 
judgment, cause the governments involved to believe that they 
had no choice because of the uncertainty as to whether or not 
the United States would actually fulfill the threat that is 
implicit, certainly, in everything that has been said, 
particularly about nothing is taken from the table or there are 
red lines and whatever.
    But if there is assurance on the part of those who depend 
on this guarantee that we will, in fact, follow through, I 
think the likelihood that you will see proliferation extend to 
other areas goes down, the likelihood that Iran will actually 
challenge to this point goes down, and the likelihood for a 
peaceful resolution goes up.
    So sometimes the best preparation combined with the 
demonstrated willingness to follow through is sufficient to 
keep a conflict, a kinetic exchange of some sort from occurring 
in the first place. And it certainly would be our hope. We are 
not advocating war. We are advocating a peaceful resolution to 
the question. But the only way you can be credible is to 
indicate that you are not simply talking about some of these 
consequences but that you are prepared and willing to follow 
through.
    Mr. Albright. Yeah, I would like to take a different point 
of view. I think it is premature.
    And I mentioned that this policy that is developing is a 
knife's edge. And I think one of the ways you can fall off is 
that it starts to look like the United States will attack Iran, 
or at least that Iran will perceive that. And what it will do, 
I would predict, is start to build--or make a decision of how 
it is going to secretly build nuclear weapons.
    And, again, Iran is very patient. It may not do it this 
year; it may not even do it next year. But you may be faced 
with an adversary that is going to get nuclear weapons before 
you can attack, or the United States can attack, and it assumes 
it is going to happen. And so you create an inevitability about 
an Iranian nuclear weapon that is not in our interest.
    And I think the other part of it is, I think, frankly, 
looking back, it was a mistake for Congress to give the 
authorization to President Bush about the Iraq war so early in 
the debate, that Congress lost its valuable oversight on a 
critical question that, I think we would all agree, has been a 
very difficult process. And so I think Congress should not give 
away anything that has to do with having oversight over this 
process.
    Now, I would also agree with Senator Robb that, because of 
the nature of the policy President Obama is sculpting, it is 
very hard to predict when a war would happen or a military 
strike would happen, because it depends fundamentally on 
Iranian actions, in the sense that he said he would ``prevent'' 
Iran. That means that Iran has to make a step to get nuclear 
weapons and then there is a reaction. So I think the President 
needs quite a bit of leeway on this, but with extensive 
oversight by Congress.
    The Chairman. It just seems to me that if Iran's sole 
interest was just to develop nuclear capability for a power 
plant or some other such source, they would not have to bury 
under a mountain their facilities to avoid the possibility of 
an attack. It just--it stretches, I think, credibility on their 
part.
    And while I am not advocating that we move forward on a 
resolution of this nature, it seems that it would be good to 
show that we are acting as one, that we do support the 
President. Because this should not be politicized in any way, 
and it should be something that we do in a bipartisan way. And 
people understand that the House is under Republican leadership 
while the President is a Democrat, and we should not be 
separating the parties.
    And, like I say, I am not at any point advocating; I am 
just trying to get your impressions on this. So thank you. 
Thank you very much.
    Mr. Smith.
    Mr. Smith. I thank you, Mr. Chairman.
    A couple quick comments on that and then one or two 
questions.
    I think Mr. Albright does point out, it is a delicate 
balance to strike. I mean, if Iran thinks we are coming at them 
no matter what, then they better be as strong as possible, and 
you have to strike that balance.
    I also think that what is really interesting about this 
situation is, I don't think Iran has decided yet. I think the 
chairman is right. I mean, certainly there is a big part of 
them that is thinking, ``We better be in a position to get a 
nuclear weapon,'' and that is why all the cautious steps have 
been taken, the underground bunkers and all that. But I think 
all the evidence we have seen is they have not decided at this 
point to step over that line.
    And, you know, regardless of what they are developing it 
for, you know, they have cause to be concerned that we might 
attack them anyway. So I guess, I don't think that the fact 
that they buried it that deep means that they are 100 percent 
decided they are building a nuclear weapon. That is all I would 
say about that.
    The two questions I have, one for Mr. Rademaker. You had 
commented when we were talking about how quickly Iran could get 
there if they decided to basically make the dash for the finish 
line, and we went through all of the different numbers on that, 
but then you said something interesting. You said, it doesn't 
make much sense for Iran to proceed in that manner. It doesn't 
make sense for them to actually take the steps that would get 
us on that 60-day or 105-day or 4 months or 8 days after that.
    Why do you say that? Why do you say that doesn't make much 
sense for them to proceed in that manner?
    Mr. Rademaker. Thank you, Mr. Smith.
    First, let me comment about, sort of, this larger question 
of secret facilities and underground facilities. I think the 
first point we have to bear in mind is Iran has a long history 
of proceeding with secret underground facilities. The Natanz 
facility was originally a secret facility that was revealed 
against their wishes in 2002. The Fordow facility, which is a 
much more--and Natanz is an underground, secure bunker, but it 
is probably at risk to bunker-buster munitions. Subsequently, 
they constructed a much more secure, more deeply buried 
underground facility at Fordow. And, again, that was a secret 
facility which was revealed contrary to their wishes.
    And so the notion that--I am responding here to Mr. 
Albright--but the notion that they might respond to the threat 
of U.S. military force by building secret underground 
facilities, you know, I think there is reason to think, based 
on past behavior, that they are already planning to do that and 
may already have started doing it.
    Mr. Smith. I don't think that was Mr. Albright's larger 
point, but----
    Mr. Rademaker. Well, I think the point was that--well, one 
of his points was, we don't think--I think he was saying we 
don't think they have a secret facility because we don't know 
of any secret facilities. And I guess I would point out that is 
something of a tautology because, of course, if we knew about 
it, it wouldn't be a secret facility. And given their track 
record, I think there is a considerable risk that----
    Mr. Smith. I have a question on that, actually, but if we 
could get back for the moment to the question----
    Mr. Rademaker. Okay. The--but I would--and this goes to the 
first part of your question. You say you don't think they have 
made a decision to go forward or not. I think it depends on 
what it is we are talking about. If we mean, or if you mean you 
don't think they have made a decision to actually produce a 
nuclear weapon, I think----
    Mr. Smith. Well----
    Mr. Rademaker [continuing]. I think that is true. It is 
unclear whether they have made that decision. But I think----
    Mr. Smith. That is my only point.
    Mr. Rademaker. Well, but at the Bipartisan Policy Center, 
we have always been focused at least as much on the question of 
nuclear weapons capability. And there I think it is crystal-
clear, given the construction of these very expensive 
underground facilities----
    Mr. Smith. Oh, yes. They want to----
    Mr. Rademaker [continuing]. That they made a decision a 
long time ago to create a nuclear weapons capability. They want 
us and the rest of the countries in their region to be 
profoundly fearful that they either have a weapon or are 
extremely close to having one. And, therefore, they want to be 
treated as a nuclear weapons state. I mean, that is the point 
of achieving nuclear weapons capability: to create ambiguity 
about whether and when they will actually produce a weapon, and 
thereby be treated as----
    Mr. Smith. Up to a point.
    Mr. Rademaker [continuing]. Because of that doubt, to be 
treated as if they had one.
    Mr. Smith. If I may, up to a point. But they also don't 
want to put themselves in a position where they a treated like 
a pariah state for no particular gain; that they wind up being 
under the threat of, you know, massive sanctions or potentially 
military action.
    But, again, if we could meander back to my question----
    Mr. Rademaker. Okay. On that, I think they have actually 
put themselves in the position of being treated as a pariah----
    Mr. Smith. Right.
    Mr. Rademaker [continuing]. State. And they continually 
make the decision to stay in that position rather than----
    Mr. Smith. At the moment, yes.
    Mr. Rademaker [continuing]. Satisfy the Security Council.
    Mr. Smith. My question is, you said that you didn't think 
it would make sense for Iran to walk down that step to get to 
that 4-month point at this stage.
    Mr. Rademaker. Yeah. On that----
    Mr. Smith. Why?
    Mr. Rademaker. On that, my reasons are pretty much the ones 
that were articulated by Mr. Albright. These are theoretical 
calculations about what they could do, but why would any 
country want to make a mad dash to have one nuclear weapon? 
Most countries that produce a nuclear weapon--take North 
Korea--at some point they want to demonstrate to the world that 
they have it----
    Mr. Smith. Right. Exactly.
    Mr. Rademaker [continuing]. And the way you demonstrate it 
is by testing.
    Mr. Smith. You blow it up and you----
    Mr. Rademaker. So, to make a mad dash to produce one weapon 
that then people will say doesn't actually work, and to show 
that it works, they will want to test it----
    Mr. Smith. Right.
    Mr. Rademaker [continuing]. You know, they haven't really 
done very much.
    Mr. Smith. So walking down that particular math problem, 
how long would it take--because, theoretically, I mean, if you 
want to declare yourself as a nuclear power, you are going to 
need more than one. You are probably going to need more than 
two. You are going to need to demonstrate one and then say we 
have a stockpile of, I don't know, four, five, something like 
that.
    How long would it take for them to get to the point where--
to that point. And then I guess the second piece of that 
question is, how much would we know about how far they are 
walking down this road?
    I mean, and that gets us to the secret issue. I mean, the 
big issue--and then to sort of bounce back to this--is, will we 
know when they have stepped over a line and they are trying to 
build a bomb? And I have heard testimony in a variety of 
different forums that we are pretty confident that we would. 
Nothing is 100 percent, but that the effort that it would take 
to spin up the plutonium to get to 90 percent or whatever it is 
that you need to get to the weapons-grade, we are pretty 
confident that we would know.
    What is your take on that? And then work back from that to, 
sort of, the math of how long it would take them to get to a 
reasonable point.
    Mr. Rademaker. We have thrown a lot of numbers out. For 
your question, perhaps the most important number is one we 
haven't dwelt on up to this point, and that is the amount of 
low-enriched uranium that they currently have. How many bombs 
could they produce from that low-enriched uranium if they 
wished to do so? And David Albright's calculations on that are 
that they today have five bombs' worth.
    Mr. Smith. You mentioned that, two to five.
    Mr. Rademaker. And our calculations are actually more 
conservative, based on different methodology. But--and then the 
further point is that, at current production rates, they are 
producing more than a bomb's worth of low-enriched uranium 
every year, so----
    Mr. Smith. Right.
    Mr. Rademaker. And the rate of production is increasing. It 
increased 37 percent in the last 3 months, as compared to the 
previous 3 months. So, you know, all of the numbers we have 
thrown out, had we been here 6 months ago or a year ago, would 
have been less troubling.
    Mr. Smith. So, reasonably----
    Mr. Rademaker. And I would predict that if we are going to 
be here 6 months or a year from now, they will be more 
troubling still.
    Mr. Smith. Right. So, reasonably, they are not that far 
away from being in a position to make a mad dash to five or 
six, is a fair thing to say.
    So if they were to make that mad dash, again, the real 
question is, would we know? And how much--well, I guess the 
other question is, how much longer would it take them to make 
five to six than it would to make one?
    Mr. Rademaker. Well, this is why the question of a secret 
facility becomes so important, because our ability to detect it 
of course depends on there not being a secret facility at which 
they are doing this. And, you know, I think the main reason 
that experts will come to you and say we are pretty confident 
they don't have a secret facility is that the last two times 
that they tried to build a secret facility----
    Mr. Smith. We knew.
    Mr. Rademaker [continuing]. They got caught.
    Mr. Smith. Yeah.
    Mr. Rademaker. And so we surmise from that that they are 
not very good at keeping that secret and we will catch them if 
they do it again. I hope that is true.
    Mr. Smith. Yeah. It is also worth pointing out--and then I 
will close on this; I want to throw it to other people--it is 
worth pointing out, we actually knew that they had those secret 
facilities before, quite a bit before, we told everyone that we 
knew, without getting into it. So, you know, there is some 
confidence that we can, in fact, figure it out. But it is a 
very thorny policy problem.
    I am sorry, I am taking too much time. I will yield back.
    The Chairman. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank you for being here today.
    And for Senator Robb, a question that I have: What do you 
believe is the current pace of Iran's nuclear weapons program? 
Do you believe that the Iranians have decided to build a 
nuclear weapon? Are the Iranians building a breakout capability 
to allow for the option to build a weapon in the future? When 
might the Iranians actually possess a nuclear weapon? Could the 
Iranians accelerate their efforts? And if so, to what degree?
    Mr. Robb. I think that a large part of the series of 
questions that you just asked have just been discussed at some 
length by the two technical experts here.
    We don't know in absolute terms how fast it is producing. 
And each of our reports have indicated that there were--the 
estimates, both in terms of technical capability, speed of 
production, and our understanding of the amount of HEU [highly-
enriched uranium] or other material, was not certain. But, as 
Mr. Rademaker just indicated, we believe and hope that we will 
have enough information so that we would recognize it in a 
relatively short period of time. And because we have discovered 
previous efforts to construct underground facilities and they 
have been discovered, we don't think that they can go on for an 
unlimited period of time with a very significant increase in 
production.
    But it all ultimately boils down to how much HEU they are 
able to refine so that they could make a weapon or weapons. And 
that is probably never going to be knowable in an absolute 
sense unless we do it through some technical means that we 
obviously wouldn't be discussing. So we are going to have to be 
prepared for the worst case.
    One of the elements of this equation that has not been 
dwelt upon this morning to any extent is, what does the Israeli 
Government think about the situation, how might they react, and 
is their calculation as to how much time, how much fissile 
material, how close to breakout they might be the same as ours? 
And the ultimate question, even, is whether they would share 
their estimate and/or their decision to intervene. They have 
made it clear that they see this as an existential threat and 
take that very seriously.
    And much of our effort has been designed to try to make it 
possible to show the folks, the leadership in Tehran that both 
the United States and Israel, if they believe they reach 
whatever point represents in their judgment the crossing of a 
red line, that they have the capability, more so on the Israeli 
side and will more so on the U.S. side.
    I don't know if I covered all of your questions, but----
    Mr. Wilson. Well, you did. And I appreciate, actually, you 
raising Israel's estimation and, indeed, the threat to their 
existence. So thank you for raising that.
    Mr. Rademaker, a question: Apart from the ability to 
conduct a military strike to delay or end Iran's nuclear 
weapons program, what other benefits result from enhancing the 
credibility of the military option? For example, do we know how 
Iran would view increased military readiness? Would it enhance 
our diplomatic efforts? How would our regional allies respond?
    Mr. Rademaker. Those are very interesting questions.
    The first point I would make is that our recommendations, 
the Bipartisan Policy Center recommendations, are not a call to 
war with Iran. We are not calling for a military strike. We are 
calling for credible indications that force is in prospect.
    You know, President Obama and President Bush before him 
both used this term, that ``all options are on the table.'' And 
by that, they mean to imply that the threat of military force 
is also on the table. Our concern is that we don't think the 
Iranians actually believe that. And for every time that 
President Obama has said, ``All options are on the table,'' 
there has been a statement by some other senior Cabinet 
official or some other official of the United States Government 
suggesting that the military option really isn't a very serious 
option for the United States. And we worry, our task force 
worries that Iranians actually pay more attention to those 
signs of equivocation than they do to the mouthing of these 
words, that all options are on the table. So our call has been 
to make that statement by both President Obama and President 
Bush more credible.
    And we believe that if it becomes more credible, if the 
Iranians believe that continued pursuit by them of a nuclear 
weapon, continued defiance by them of the legally binding 
demands of the U.N. Security Council will ultimately lead to 
the use of force against them unless they come to a diplomatic 
resolution of the crisis, that that will increase the 
likelihood that we will actually achieve a peaceful, diplomatic 
resolution, which is what I think all of us believe would be 
the best solution to this problem.
    Mr. Wilson. Thank you very much.
    The Chairman. Thank you.
    Mr. Kissell.
    Mr. Kissell. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here today.
    I am going to throw a question out, and whoever wants to 
respond. We have talked about the Iranians and what they may 
do. I am curious as to what your opinion is of who ``they'' 
are. We know President Ahmadinejad, we know what he talks, but 
what is the true power base in Iran? Where would these 
decisions that we are talking about need to be made? And how 
much chance is there that these kind of things we are talking 
about can influence that power base?
    Mr. Robb. Well, even though most of the attention is 
focused on either the--and I am suddenly forgetting his title--
in any event, Ahmadinejad, it is the Revolutionary Guard that 
holds the power. And they are stationed at Qom and will 
ultimately dictate what takes place.
    The public face is on--what am I thinking?--comity. 
Ahmadinejad has no real power, and of course he is going to be 
going out of office before too long in any event. But he has 
always been the most outspoken and has had the most provacative 
language, but he doesn't really have the power.
    But there is a general consensus that whatever power 
structure might evolve after that is still going to want to 
find a way to become credible as a member of the nuclear club, 
so to speak. And it doesn't necessarily mean that they have 
actually built or even formally tested. As long as the 
international community believes that they have the ability 
within some short period of time to achieve breakout, they will 
probably get almost as much as they would get from actually 
testing or certainly from launching a nuclear warhead.
    At this point, it is a matter for--the real struggle in the 
eyes of most of the leadership in Tehran and Qom and elsewhere 
is to become a member of this club and use the influence that 
that would gain. They look at what happens to those other 
powers in the general vicinity that have achieved nuclear 
status and believe that they can achieve that, as well. It is--
--
    Mr. Kissell. But, ultimately, how consolidated is that 
decisionmaking base? Is it just there in the Revolutionary 
Guard within just a very few people? How consolidated or how 
broad is that base of decisionmaking?
    Mr. Albright. Could I add to this?
    Mr. Kissell. Yes.
    Mr. Albright. I mean, ultimately, the supreme leader 
decides, and he is very tough to deal with.
    Mr. Kissell. Yes.
    Mr. Albright. But I would answer it a little differently. 
Because, again, I don't see a consolidated base in Iran on 
building nuclear weapons, making the decision to do so. I see a 
consolidated--or, a near consensus that they want the 
capability to do it.
    But I think they can be effective. And I think if you look 
at what happened in 2003, the U.S. intelligence community says 
the nuclear weaponization program was shut down. The 
International Atomic Energy Agency, in its November 2011 
report, said there was an abrupt halt to a great deal of 
nuclear weaponization activities. There was a suspension in 
their enrichment program. That was due to pressure. They 
understood that, and they stopped to avoid worse consequences.
    I would argue that Fordow--and, again, this is an 
assessment based on our collection of evidence--that Fordow was 
probably being designed to make weapon-grade uranium. We can't 
prove it. The information that supports that is mainly right 
now from two sources; one is some past behavior of Iranian 
entities that were creating a parallel military nuclear program 
in the 1990's, and then what the IAEA inspectors observed when 
they went into that plant soon after they were allowed to do. 
But the detection of that plant stopped them cold. They 
rapidly--they removed piping from one whole hall----
    Mr. Kissell. And I am going to interrupt you just one 
second. My time is running out.
    Mr. Albright. Okay, sorry.
    Mr. Kissell. I guess the point I want to make is, the folks 
that we are targeting and trying to get them to make a decision 
to back away from this, how flexible, how much can we influence 
them? You know, who are those folks, and just, you know, how 
much can we influence them?
    Mr. Albright. Well, I think we can. There are two things--
--
    Mr. Kissell. And my time is out. You answered my question. 
Thank you.
    Mr. Albright. There are two parts to that. One is, can you 
effect them to make concessions in negotiations? That is a very 
tough problem. The other is----
    The Chairman. The gentleman's time has expired.
    Mr. Albright. Oh, does that mean I should be quiet? I am 
sorry. I am not used to some of these rules.
    The Chairman. Mr. Forbes.
    Mr. Forbes. Mr. Chairman, first of all, I want to thank you 
for holding this hearing. I think it is a crucial hearing for 
us to have. And thank you for your leadership on that.
    And to each of you three gentlemen, I have enormous 
respect, and I just appreciate you sharing your ideas with us 
today. I am going to direct my question to Senator Robb because 
he was my Governor and my Senator, but I would love to have any 
of your responses there.
    Senator, you have stated in your testimony that you believe 
that Iran's pursuit of nuclear weapons is the most urgent 
national security threat facing the United States. I don't 
disagree with that at all. And then also you talked about the 
need for us to have evidence-based issues. It is not enough 
just to talk about it; we have to show we have the resolve to 
do something. And then another line that I thought was very 
important was when you said, ``It is only the credible threat 
of force combined with sanctions that affords any realistic 
hope of an acceptable diplomatic resolution.''
    And here is my question. As we realize that--and I think 
all of us would concur with those statements, and I think the 
three of you on the panel would do that--what kind of conflict 
do we have in sending that message of a credible threat of 
force when Iran is watching us with these huge defense cuts 
that we are doing, $487 billion and then sequestration looming 
out there, which certainly sends a message to the world that we 
may not have that kind of credible force.
    We then look at another statement that you made which 
talked about beefing up the Fifth Fleet in the Persian Gulf and 
the Gulf of Oman. How does that conflict with the new strategy 
of this pivot to the Asia-Pacific area? We can't have it, kind 
of, both ways.
    The third thing you talked about, and I agree with you 100 
percent, prepositioning military supplies. And yet we are 
moving our prepositioned stocks back out of the Pacific and the 
Asia area.
    And then you talked about the need to strengthen the Air 
Force capabilities to require an effective strike. But General 
Breedlove has testified that the Air Force now is on the ragged 
edge, and, with these cuts, we are not going to get any better.
    So I would love to have the assessment from the three of 
you on if you think they have any impact on our credible force.
    And then if you have time, also, we see yet today another 
leak out of the White House of stuff we are doing in Iran. How 
detrimental is that in what we are doing?
    Senator, I would love to have your thoughts on those.
    Mr. Robb. Well, first of all, leaks of sensitive 
intelligence information don't help the United States in any 
way, shape, or form. And we ought to do everything within our 
power--again, I am not excepting the necessary attribution in 
terms of who leaked or how, but leaks of sensitive information 
about capabilities, about plans, about other activities that 
might be under consideration ought to be avoided at all cost. I 
will just leave it at that.
    The other question about our capability being eroded by the 
defense cuts and the sequestration and whatever, there is no 
question that those present enormous challenges to our United 
States military forces in each of the areas that you have 
outlined. And that is one of the reasons why it is especially 
important right now that we not appear to relax our apparent 
guard or our apparent willingness to follow through with that 
particular, I will use the word ``threat'' in the event of an 
action which is simply unacceptable.
    And, incidentally, we argued 4 years ago, in beginning 
this, between ``untenable'' and ``unacceptable.'' We had 1 
whole day of discussing which word to use. And we used 
``untenable'' because we didn't want to imply a red line at 
that point in the process that would require the United States 
to either take military action or lose credibility.
    But both administrations--and that was done before the last 
election, so we didn't know which administration was going to 
be following up on this action--but both administrations have 
used the word ``unacceptable,'' and senior representatives of 
those services.
    So when you use that word, as far as I am concerned your 
credibility is now at stake. And it is that much more important 
that we use our commitments wisely. We may have to--and we make 
some reference in the paper--divert some current military 
assets to strengthen our ability to respond in this particular 
area, but that is not an attractive option by----
    Mr. Forbes. My time is up, but thank you. And we would love 
to have any response that you have for the record so that we 
could use that. It would be wonderful. And thank you so much.
    Mr. Chairman, thank you for your patience.
    [The information referred to can be found in the Appendix 
on page 85.]
    The Chairman. Thank you.
    Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chairman.
    Mr. Albright, do you believe with the statement of the 
Bipartisan Policy Center that we are calling for a triple-track 
strategy? And if you do, what is your opinion of the credible 
preparedness of the military option, which Mr. Rademaker says 
has fallen short?
    Mr. Albright. I haven't studied it in detail. I mean, you 
are outlining three ways forward that I think most who are 
worried about Iran's nuclear program would agree with. I mean--
--
    The Chairman. Mr. Albright, could you please talk into the 
microphone?
    Mr. Albright. Oh, okay.
    The Chairman. Thank you.
    Mr. Albright. I think that there is--I have broad agreement 
with the three areas. I mean, where I think there may be a 
problem is overemphasizing the military. I will repeat what I 
said earlier, that you run a real risk that Iran thinks that we 
intend to attack them regardless, and that that can have some 
very negative consequences.
    Ms. Hanabusa. Would I be correct in assuming that your 
analysis is that if we do what Mr. Rademaker is saying is that 
we have fallen short and we begin to enhance that, that your 
belief is that Iran would then interpret it as an offensive 
action and then do this breakout? More probability?
    Mr. Albright. Or pursue a secret route.
    Ms. Hanabusa. And you feel that that would be almost the 
unintended consequence of what is being proposed.
    Mr. Albright. Yes.
    Ms. Hanabusa. Now, Mr. Rademaker or Senator Robb, I see and 
what your position is is that we have fallen short in terms of 
the military option.
    And I think, Senator, in your written testimony you have 
spoken to building the Fifth Fleet. And I am just--I am trying 
to understand, when you want to enhance the Fifth Fleet, what 
does that exactly look like?
    Mr. Robb. Well, with the exception of specifying what 
munitions that we ought to sell to Israel to shore up their 
capability, we have not tried to specify how many warships, how 
many aircraft, how many whatever the case may be in this 
particular case. The objective of the Bipartisan Policy Center 
is not to create an entire punch list for the Government to 
check off. We think that ought to come from the military 
commanders in the area, in consultation with the civilian 
leadership.
    What we are suggesting is that these are areas that can and 
ought to be shored up so that we make more credible and give 
greater emphasis to our willingness to follow through in the 
event that Iran does not take our threat--again I use that 
word--seriously.
    Ms. Hanabusa. I understand that, Senator. And I guess what 
I hear is that--and what I read was that it is sort of a joint 
effort. In other words, if we are not, the United States is not 
willing to provide whatever enhancement or security that Israel 
may need, that we then have an obligation--or if we want to 
prevent this buildup, we then should then focus on our own 
presence, in terms of the building up of the Fifth Fleet.
    But I still assume that to make the analysis that we have 
fallen short or it is somehow inadequate, there must be some 
measurement in your mind that we are not reaching. And I am 
just trying to get an understanding of what that level is that 
leads to the conclusion by Mr. Rademaker in his testimony that 
we have fallen short.
    How have we fallen short? I mean, without getting into that 
we need another carrier or we need whatever or we need to give 
Israel X, Y, and Z, why do you think conclude that we have 
fallen short?
    Mr. Rademaker. Let me make a threshold point here, which 
is--and some of the others witnesses have referred to this. The 
last time that Iran perceived a credible threat that military 
force was going to be used against them, they suspended uranium 
enrichment. That was right after the Iraq war in 2003. And not 
coincidentally, Libya did the same thing. Qadhafi gave up his 
nuclear weapons program at the same time.
    Because in that initial 6- to, you know, 12-month period 
after the U.S. went into Iraq, the threat to--you know, 
President Bush had given his ``axis of evil'' speech. The 
perception in Tehran, we believe, was that what had just been 
done to Iraq might happen to them, and they were genuinely 
worried about it. And one of the things they did was they 
suspended uranium enrichment and engaged in a fairly serious, 
fairly intensive diplomatic process with the Europeans.
    And, of course, we all know what happened next. The Iraq 
war headed south, and the U.S. became bogged down and----
    Ms. Hanabusa. I am out of time. Could you put that in 
writing, what you were going to finish with that statement all 
the way through to the--Mr. Chair, if that is okay--with the 
final assessment of how we have fallen short?
    Mr. Rademaker. I think I can finish in one sentence.
    Once they stopped believing that there was a serious risk 
that the U.S. would conduct military activities against them 
because of the way this was playing out in Iraq, they ended 
their suspension of enrichment and have never returned to it 
and have persisted with their nuclear program ever since.
    Ms. Hanabusa. Thank you, Mr. Chair.
    The Chairman. Thank you.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    I want to thank our panelists for their dedication and 
commitment to trying to provide some overall description and 
understanding on a bipartisan basis on what really is an 
important issue.
    I want to underscore, though, that I am very concerned 
about how the tenor of the hearing and the message of the 
hearing has gone if someone had only been watching this 
hearing. So I want to sort of backtrack and reverse a little 
bit on what our topic has been.
    Because there have been a lot of statements that we have 
had, both from Members and on the panelists, of things like, 
you know, ``Well, we think they will stop, it doesn't make much 
sense for them to proceed''--a lot of statements that I think 
would lead one to believe that we don't really have to do 
anything and we are not going to be facing a nuclear Iran.
    So I want to backtrack a bit on this whole issue because of 
two things: One, I think it would be incredibly naive for 
anybody to believe that we need to do nothing--and I don't 
believe our panelists believe that--to avoid a nuclear Iran.
    I recall, and I am certain you all do, the discussions 
during North Korea's pursuit for nuclear weapons, that it 
wasn't just enrichment, it was nuclear weapons, and their 
pursuit currently for ICBM [intercontinental ballistic missile] 
technology that, as you know, our Secretary--former Secretary 
Gates said is an absolute threat to the mainland of the United 
States. And I recall the people who said North Korea would 
never go as far as to have nuclear weapons capability, they 
would never have a test, they would never have a weapon, that 
they were starving their people, that the outcry of the 
international community would have such a great effect that 
North Korea would not be a nuclear weapons state. Today they 
are.
    So those statements, that thought process of ``surely, a 
nation wouldn't, because the price is just too great'' has been 
proven, with the most recent pursuit by North Korea, as not to 
be sufficient to deter someone from doing that.
    Military action, as you have just mentioned, Mr. 
Rademaker--and I know that Mr. Albright mentioned that the 
National Intelligence Assessment of 2003 indicated a belief--
again, it was just a belief--that the nuclear weapon that was 
suspended by Iran in 2003 was, as you were just describing, Mr. 
Rademaker, a basis of the action that Iraq had been invaded and 
they had a military sitting next to them and that the threat of 
credible force caused them to suspend.
    But the reason why I wanted to back up, besides just the 
issue of North Korea, is to put in context as to why we really 
care. Iran is not Canada. Iran is a terrorist-supporting 
nation, regime, both through Hamas and Hezbollah. They have 
made aggressive statements against Israel and the United 
States. They have continued to make threatening statements or 
gestures with respect to the Straits of Hormuz, which would 
have significant world impact if they were to take any action 
there.
    So the issues that we are talking about here are very 
serious and not ones which we should just say that we have a 
belief that it would not make much sense for them to proceed. 
Because I would venture to say, and I think everybody in this 
room would individually agree, no one, not one person in this 
room can ever say what another nation thinks or is going to do. 
We can only do an assessment of what we have studied and, from 
that, what we can ascertain.
    But I think the purpose of this hearing is the to-do list 
for avoiding that, right? I mean, it is not for us to just 
conclude, we don't have to worry about this. It is, what do we 
need to do?
    And I was very pleased with the Washington Post editorial 
today. The Washington Post editorial says an impasse with 
Iran--which is why this is so important we are doing it; it is 
even the lead editorial. And it says--it concludes with, 
``Israel may press for military action,'' but it goes on to 
say--it concludes, ``If that option is to be resisted, there 
must be a credible and robust alternative.'' And that is that 
issue of the to-do list. What do we have to do to make certain 
that they are deterred so that they don't have to just merely 
be impacted by military action?
    Now, back to this issue of what they are doing. We can't 
say what they are thinking. We can only say what they are doing 
in order to ascertain this to-do list. I am the chairman of 
Strategic Forces, and I know that--and I know the panelists 
know that Iran is pursuing vigorously missile technology.
    In the missile technology that they are pursuing, certainly 
it would lend itself to a belief that there are capabilities 
that they are seeking of ICBM. If they were to seek ICBM 
capability, wouldn't be that be an indication that they are 
seeking a nuclear weapons program? Because you can't have an 
ICBM that is just conventional for their program.
    Could you just talk for a moment about what we see them 
actually doing, not what we believe that they are doing, and 
how that goes directly to the imperative action that we take on 
our to-do list?
    Mr. Albright. Let me say something.
    I mean, I think they are trying to develop nuclear weapons. 
I mean, I see them on a trajectory to get nuclear weapons----
    Mr. Albright. Thank you.
    The Chairman. The gentleman's time has expired.
    Mr. Albright. But let me--oh, I am sorry.
    The Chairman. What I would like you to do is put it for the 
record, please. Because there really isn't--he used his whole 
time.
    Mr. Turner. Thank you. I think the answer we got, though, 
was pretty important, is that you do believe that they are 
seeking nuclear weapons. And so, if we could get the answers 
for the record----
    Mr. Albright. On a trajectory.
    Mr. Turner [continuing]. That would be really helpful.
    [The information referred to can be found in the Appendix 
on page 85.]
    The Chairman. Thank you.
    Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    I want to thank you gentlemen for being here today.
    I understand that the organization is bipartisan, no 
question about that. It is bipartisan in terms of the 
politicians who founded it and those who speak for it, that is 
true. And whenever you have politics--and whenever you have 
politicians, you have politics. And I love politics. I am a 
politician myself. But I understand how it works.
    I am really skeptical about the timing of this report. It 
seems that it could have some effect in the upcoming political 
races around the country. And, you know, it really appears to 
me to have parallels with the run-up toward the invasion of 
Iraq, which, by the way, was they say now based on faulty 
intelligence, the decision to go in, based on faulty 
intelligence.
    What I am wondering is whether or not--or, really, what I 
am wondering is, what level of intelligence was used in coming 
to your conclusions in this report?
    Either Mr. Robb or Mr. Rademaker.
    Mr. Robb. Well, let me first of all say that I had a little 
something to do with examining the intelligence that led to the 
invasion in Iraq. Judge Silberman and I co-chaired the WMD 
[weapons of mass destruction] commission that explored the 
intelligence community in detail.
    This report, however, is not based on any classified 
information. It is based solely on open-source information, 
matters that have been reported, and, more importantly, on the 
expertise of the people who make up the various task forces. In 
this particular case, we have people who are very 
knowledgeable.
    Certainly, you have politicians in addition to many other 
subject-matter experts and others who have something to 
contribute in a significant way. But to suggest that this was 
done for an election or whatever, I am showing you, three out 
of the four reports that preceded the last Presidential 
election, they have continued throughout. We have updated some 
of the information as it has become available.
    Mr. Johnson. Well, now, I am not accusing the----
    Mr. Robb. I just wanted to assure----
    Mr. Johnson [continuing]. Organization of playing politics. 
I did not mean to do that, and I am sorry if I----
    Mr. Robb. No, I just wanted to make sure that there wasn't 
any perception----
    Mr. Johnson. Uh-huh.
    Mr. Robb [continuing]. On the part of anyone. But I accept 
your----
    Mr. Johnson. But, you know, I mean--and I came into this 
with healthy skepticism because I do not want to see us proceed 
along a drumming--a tightening, you know, a louder drumming 
toward war. And I know that one of the things that you all talk 
about is the fact that, you know, diplomacy is not working and 
so, therefore, we need to start rattling the sword, the sabres, 
and we need to start showing more military preparation. And we 
already have substantial military assets that have been 
ratcheted up and are in place in the region, ready to strike if 
need be.
    These things are kind of--so when we start saying that 
diplomacy has failed--and, really, the Moscow talks right now 
are not--they have not failed. They are still discussing 
things. But it seems like you all are ratcheting up the 
pressure to force the President to make a move that even he 
with his military advisors and superior intelligence assets do 
not think is important right now.
    And this comes after the President has imposed sanctions 
that are unprecedented against Iran. Is that true?
    Mr. Robb. We give the President full credit for what he has 
done, for his negotiations, for his diplomacy, for his increase 
in sanctions.
    What we are saying is, the bottom line is this hasn't yet 
proven to be enough. While these discussions and negotiations 
have taken place, there has been no evidence that Iran is 
prepared to make any kind of good-faith effort to resolve this 
question. But they have continued to keep the centrifuges 
running. They have continued to increase their ability----
    Mr. Johnson. Do they have a right to produce nuclear 
energy?
    The Chairman. The gentleman's time has expired.
    Mr. Brooks.
    Mr. Brooks. This would be a question for the entire panel. 
Could you please provide some more specifics about America's 
military capability that need to be enhanced and the benefit of 
increasing the United States Fifth Fleet presence in the region 
in order to address the Iranian problem?
    Mr. Robb. I am sorry, I am just consulting because the 
question was so fast that I couldn't pick it all up. But if the 
question is, do we believe that additional steps need to be 
taken in the course of this ongoing negotiation, the answer 
would be yes.
    Mr. Brooks. No, no, I am talking about America's military 
capability. I will reread the question, and I will go slower.
    Could you provide some more specifics about America's 
military capabilities that need to be enhanced and the benefit 
of increasing the United States Fifth Fleet's presence in the 
region?
    Mr. Rademaker. Congressman, one of the contributions of the 
Bipartisan Policy Center to this debate was the publication of 
a paper that I think addresses that very question. So perhaps 
what we should do is submit that paper for the record, because 
it goes through in a more detailed fashion, outlining some of 
those steps.
    Mr. Brooks. If you would do that, that would be 
appreciated.
    [The information referred to can be found in the Appendix 
on page 86.]
    Mr. Brooks. And do any of you have a judgment as to how 
sequestration, which currently is scheduled to take effect on 
January 1st of 2013, will affect the needed military 
capabilities to address the Iranian issue, if we get to that 
point?
    Mr. Robb. Well, I think we have indicated that it will make 
it much more difficult. There is no question about that. And--
--
    Mr. Brooks. Is there some way you can quantify what you 
mean when you say ``much more difficult''?
    Mr. Robb. Well, we have attempted to do that in the papers 
that we have discussed, although because sequestration was not 
an issue earlier on, it is not addressed in a straightforward 
way. But there is no question that you can't cut down 
significantly in all of the elements of force that are 
necessary to carry out our responsibilities in this area and 
elsewhere around the world without severe strain.
    When you start talking about taking 80,000 troops in the 
Army and the Marine Corps, or taking the level down by that 
much, you are making a significant reduction in your capability 
and your ability to rotate, et cetera. To the extent that you 
cancel weapons systems or reduce the number of individual 
weapons that you buy or other units that you buy, you are 
clearly putting additional stress.
    Almost everything that Congress does, that the President 
does has to do with tradeoffs and choices. And what we are 
doing is pointing out that we can't let those kinds of 
challenges completely undermine our ability to thwart what 
could be a far more disastrous consequence if Iran were to 
achieve the nuclear weapons capability which they seek and we 
are unable to provide credible evidence of our ability to 
follow up on what we say we are going to do.
    So, sure, it is a tremendous challenge that we face. But we 
can't, simply because we have a significant possibility of 
serious reductions in many areas, abandon the need for eternal 
vigilance in this area.
    Mr. Brooks. Let me make a statement, then I would like your 
reaction to it. If you agree with it, that is fine. If you 
disagree with it, that is fine. But you have greater insight 
than I do, so it would be beneficial for the record to have 
your reaction.
    If sequestration takes effect, that is going to adversely 
affect our military. We have had some judgments in the 
neighborhood of 700,000 fewer uniformed personnel, DOD 
[Department of Defense], civilian support workers, private-
sector and military support personnel.
    Right now our military capability has a twofold positive in 
this issue. One is it creates a credible deterrent. We have the 
military capability in the eyes of the Iranians, so they have 
to consider that. Second, if the Iranians actually get to the 
point of developing nuclear weapons and it is in the United 
States' interest to stop that development, we have the 
capability to succeed in stopping Iranian acquisition of 
nuclear weapons.
    However, if sequestration goes into effect, then we have 
decreased our capability and decreased our deterrence and, in 
fact, have actually increased the probability that Iran will be 
able to acquire nuclear weapons and use them as they wish. What 
is your reaction to that?
    The Chairman. The gentleman's time has expired. If you 
could please answer that for the record.
    [The information referred to can be found in the Appendix 
on page 85.]
    Mr. Rademaker. I think we agree.
    The Chairman. Mrs. Davis.
    Mr. Albright. Maybe not completely.
    Mrs. Davis. Thank you, Mr. Chairman.
    And thank you, gentlemen, for being here on a serious 
topic.
    I appreciate the fact that my colleague is asking the 
question, but I think we have to put that in a context--this 
isn't the place to necessarily do that--in terms of how we face 
the challenges that we see, whether it is in the military or 
whether it is in other aspects of our economy and, certainly, 
of the services that our people anticipate and know that exist 
here in this country.
    I wanted to go back to the discussion of the Fifth Fleet 
and whether or not we would need to preposition additional 
resources from CENTCOM [Central Command] in that area. I think 
I was hearing that you thought that would be a good thing. And 
that raises the question of whether or not you feel that we 
have sufficient resources to surge forces in the area if we 
needed them, or you felt that we needed to bring those 
resources into the area today or, you know, down the line and 
take them away from other areas where I think that the Pentagon 
has decided those resources really need to be.
    Are you suggesting a prepositioning, or are you suggesting 
at some point that might be something that we need to look at?
    Mr. Robb. I think most of that question was answered in 
response to a previous question, but what we are trying to do 
is to illuminate some of the things that the United States can 
do to increase its ability and credibility to respond if 
necessary. And there are always going to be some tradeoffs. We 
are not trying to proscribe that you put two more DDGs [guided 
missile destroyers], X number of whatever in a particular area. 
We are saying, these are things you can do to make the argument 
that we are making more credible.
    And the credibility, if it doesn't have evidence of 
capability, is not going to be increased.
    Mrs. Davis. Uh-huh. Are you suggesting, though, that that 
would be an additional deterrence? Does Iran really need more 
from us that would suggest that we need to have more 
deterrence?
    Mr. Robb. With all due respect, what we are trying to say 
is that we need to be credible in our ability to use kinetic 
force, if necessary, to thwart the Iranian quest to achieve 
nuclear weapons capability. And that is really what it amounts 
to.
    And we are not suggesting that there are not very difficult 
choices that are going to have to be made with respect to 
weapons systems, weapons, et cetera, manpower, whatever the 
case may be, but that we need to focus on creating an 
understanding in the eyes particularly of the Iranians, but 
also the Israelis, the rest of the neighbors, and the 
international community, that if we say we are serious, we are, 
in fact, serious and that we are not reducing our capability at 
the same time that we are suggesting that we are serious.
    Mrs. Davis. Uh-huh. But you are acknowledging there is 
tremendous capability in the region today.
    Mr. Robb. Oh, yes, there is no question about the fact 
that--there is no nation on Earth that has the kind of 
capability that we have in all regions of the world.
    Mrs. Davis. Thank you. I just wanted to clarify that 
because----
    Mr. Robb. Okay.
    Mrs. Davis [continuing]. It came across a little 
differently. Thank you. I appreciate that.
    I think we also know that there are possibilities of Iran 
having biological weapons. There are ways in which they 
leverage proxy groups. Your focus today, I appreciate that, is 
on the nuclear, but I wondered if you wanted to comment on 
that, and Mr. Albright as well, if you wanted to say anything 
regarding those issues and how important that is for us to have 
that understanding as well.
    Mr. Rademaker. Maybe I will just make one comment quickly 
and then turn it over to David.
    The question was asked earlier about the potential of an 
Iranian ICBM threat and what could we confer from that. And I 
don't think any of us have access to current intelligence on 
what exactly Iran is doing in the missile area except we know 
that they consistently sought missiles with increasingly 
greater ranges.
    But the question was, if they are seeking an ICBM, what can 
we confer about their nuclear weapons or other WMD intentions? 
And I think the answer to that is, it would make no sense for 
Iran to pursue an ICBM unless they intended to mount either a 
nuclear weapon or a biological weapon, potentially a chemical 
weapon, but a weapon of mass destruction, because the accuracy 
of their ICBMs would be such that a conventional warhead would 
make no sense on that kind of weapons systems for them.
    The Chairman. The gentlelady's time has expired.
    Mrs. Roby.
    Mrs. Roby. Thank you so much, Mr. Chairman.
    And thank you all for your testimony. This has been really 
important today and, obviously, very timely for all of us. And 
so we appreciate your time today.
    Of course, it has already been mentioned that Iran 
announced yesterday its plan to build a nuclear-powered 
submarine. And so my question would be, based on your 
information, does it have the ability to build the atomic sub? 
And if so, what would be the significance both as an offensive 
platform as well as its ability to disrupt the maritime traffic 
in the Strait of Hormuz?
    So, you know, is this--or the alternative being, is this 
plan simply just refining--to justify refining uranium to 
higher levels?
    And all of you or any one of you can respond.
    Mr. Albright. I don't think they can build a nuclear-
powered submarine. I mean, Brazil has been trying since the 
1980s to do it. So I think it is more posturing on their part 
to send their own types of messages. They are struggling to 
build a reactor on land. To try to put one in a submarine is a 
much more challenging feat.
    Now, one thing--they may be trying to signal to higher 
enrichment levels, but there is no need for higher enrichment 
levels in a nuclear-powered submarine. I mean, the United 
States uses 90-, 97-, 98-percent enriched uranium in its. The 
French use low-enriched uranium. The Brazilians, if they ever 
build one, are going to be using low-enriched uranium.
    So one thing that certainly needs to be said is that a 
nuclear-powered submarine provides no justification for 
producing highly enriched uranium.
    Mr. Rademaker. I would simply add to that, though, it 
provides no necessary justification, but I do worry, 
personally, that Iran for a long time has been seeking pretexts 
to enrich to higher levels. I believe their enrichment to 20 
percent is based fundamentally on a pretext that they have a 
medical research reactor that requires it, and they are 
producing vastly more 20-percent enriched uranium than that 
reactor will ever require. And I think that is the proof that 
they are proceeding on the basis of a pretext.
    I think there is every reason to think that, just as we sit 
among ourselves and ask how can we pressure the Iranians, let's 
do more in the area of sanctions, let's do more on the military 
option, in Tehran they are doing the same thing. They are 
saying, okay, how do we pressure the--their strategy isn't, 
okay, how do we hunker down and withstand American sanctions? 
Their strategy is, what can we do to pressure them back?
    Mrs. Roby. Right.
    Mr. Rademaker. Enriching to 20 percent I think has proven 
to be a very effective way for them to pressure us back. If 
they can come up with a peaceful, that is to say non-weapons, 
rationale for enriching to even higher levels than 20 percent, 
that will turn the pressure up on us to even greater levels.
    So the fact that American nuclear submarines use highly 
enriched uranium as their fuel potentially would be all the 
justification they would need if they ostensibly were embarked 
on a nuclear submarine program; to say, well, they need the 
same type of fuel that the Americans have, and therefore that 
is why they are now enriching to 90 percent.
    Now, of course, 90-percent enriched uranium also is 
weapons-grade and could potentially have a non-peaceful use. 
But if they are searching for justifications to do this in 
order to pressure us, I worry that this----
    Mrs. Roby. That would be a good one.
    Mr. Rademaker [continuing]. Nuclear submarine--because I 
agree with David. Realistically, they are decades away from 
being able to do that. If they announced they have already 
begun producing the fuel for it, to me, that is a very 
troubling sign.
    Mr. Albright. Yeah. And just to emphasize, I mean, I think 
people, when we were engaged in these debates, said they would 
never move to make 20-percent enriched uranium. It just isn't 
conceivable.
    Mrs. Roby. Right.
    Mr. Albright. And so they did. So I think it is a very big 
concern that they will try to find a way to make highly 
enriched uranium.
    And so I think the--but it raises one of the more troubling 
scenarios or pathways to the bomb which really no one has an 
answer to. Thank God it is slow-moving, but it really is what 
we call at ISIS [Institute for Science and International 
Security] in our reports ``cheating in plain sight,'' where 
they will just move to--they won't even bother to break out. 
They will just move to find a justification to make highly 
enriched uranium----
    Mrs. Roby. Right.
    Mr. Albright [continuing]. First maybe, whatever, 30 
percent, 50 percent, and then just try to work their way up the 
ladder. And it is one of the more perplexing problems to deal 
with.
    Mrs. Roby. Very quickly, does Iran have the ability to 
strike the United States on our own soil? And if so, how?
    Mr. Albright. Well, through terrorist means.
    Mrs. Roby. Well, sure.
    Mr. Albright. I don't think they have a means to attack us. 
Certainly, even if they developed a nuclear explosive device, 
they would be a long way from being able to attack us with 
that.
    Mr. Rademaker. Delivery would be the problem with a nuclear 
weapon. But, you know, through terrorist groups or loaded on a 
ship.
    Mrs. Roby. Sure.
    Mr. Rademaker. But attacking us with a missile, I don't 
think that is within their capability currently.
    Mr. Robb. I think it is generally agreed that there is very 
little likelihood that they would attempt to launch from their 
own soil or in a way that could be directly attributed to them 
any kind of a weapon of mass destruction to the United States.
    Mrs. Roby. And that goes to whether they have the will to 
do it. And my time has expired. Thank you so much.
    The Chairman. The gentlelady's time has expired.
    Ms. Speier.
    Ms. Speier. Thank you, Mr. Chairman.
    And thank you, gentlemen, for your presentations here today 
and for your leadership.
    I am one of those that would like to get an assessment on 
the limited strike efforts.
    Mr. Rademaker, in reading through your report, I find it 
difficult to believe that a surgical strike alone would somehow 
be sufficient to prevent Iran from continuing its nuclear 
enrichment efforts. Do you think a surgical strike is 
sufficient?
    Mr. Rademaker. The military option is not a particularly 
satisfying option. It affords no permanent solution to the 
problem, and I think that is what your question gets at. It 
would buy time.
    And, you know, I think what President Obama means when he 
says, ``All options are on the table,'' what he means is, if 
the only way we can--if diplomacy has failed and nothing else 
is working and they are about to get a nuclear weapon, then we 
are going to buy time through a military strike. And I think 
our recommendation is that that is right, but the problem at 
the moment is the Iranians don't really believe that that 
military option is available or seriously contemplated by the 
United States. And so we are recommending measures to eliminate 
doubts that the Iranians might have that that is a serious 
option.
    But I think your question gets to the issue of, through 
military force alone, you know, short of an invasion, an 
occupation of the country, can we be satisfied that a precise 
air operation that takes out the Natanz facility, the Fordow 
facility, that that will solve the Iranian nuclear problem? And 
of course it won't, because Iran has an uranium-enrichment-
based program, and today they manufacture the centrifuges. They 
have the blueprints, they have the manufacturing capability. So 
we can destroy all the centrifuges they have, but they can make 
more, they can stand them up again.
    So, I mean, if you game this out, if we end up relying on 
military force to solve this problem, probably we buy a year or 
two, but then after that, if the program is back where it was 
before, then potentially we have to use military force again.
    That is why it is not anyone's preferred solution to the 
problem. The preferred solution is diplomacy that achieves 
suspension of Iran's enrichment capability, as the U.N. 
Security Council has demanded. And that is what we all hope to 
see. Our recommendation is that more be done to strengthen 
sanctions, more be done to strengthen the credibility of the 
military option, in hopes that collectively those kinds of 
measures will increase the prospects for diplomacy to succeed.
    Mr. Robb. If I might just add----
    Ms. Speier. Yes, go ahead, Senator Robb.
    Mr. Robb. One of the----
    Ms. Speier. I have very little time, so----
    Mr. Robb. Okay.
    One of the objectives here is to continue to increase the 
sanctions to the point that, at some point, although it is very 
unlike to occur through direct negotiations, that whoever is in 
charge at that particular time in Iran will come to the 
conclusion that it is in our best interest to suspend an 
attempt to get a nuclear weapons capability and that the 
pressure that would--the political pressure inside the country 
would be so great, or the other consequences that would take 
place, that they would simply, instead of negotiating, would 
change their course of action and that the United States could 
then slow down, or if they rolled back, then the United States 
could roll back sanctions.
    But until that time occurs, we want to continue to increase 
the pressure with sanctions to continue to tighten the noose so 
that they will ultimately conclude that it is in their long-
term best interest to adopt a different course of action.
    Mr. Albright. And let me just add--can I?
    Ms. Speier. Please, go ahead, Mr. Albright.
    Mr. Albright. There is no magic strike that is going to 
solve this problem. But there is also time now to consider, you 
know, if military options are being thought about, how do they 
fit into an overall strategy to keep Iran from getting nuclear 
weapons? And there is going to have to be something the day 
after, and that is going to be an incredibly important part of 
this.
    There is also time to look further at how do you stop them 
from getting nuclear weapons through non-military means? And I 
think the leak in The Washington Post today--and, again, I am 
against all leaks, but one thing it did do is it sent a signal 
to Iran that, you know, you better worry, we are in all your 
computers, and we can turn on your cameras and we can turn on 
the microphones. And it is a signal that says, look, don't even 
try something secret.
    Now, again, that is an exaggerated example, but there is a 
whole range of things going on----
    The Chairman. The gentlelady's time has expired.
    Mr. Albright [continuing]. That could be expanded that are 
non-military, essentially.
    Ms. Speier. Thank you.
    The Chairman. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    And I would just like to make a couple points.
    One is, Iran is the second-largest country in the Middle 
East, if I am not mistaken, size-wise, geographically. And I 
guess my question is, what is the minimum number of facilities 
that we would strike if we went in? And how far are those 
facilities apart? Is that something that can be discussed in 
this forum?
    Mr. Robb. I was going to say, this is not the proper----
    Mr. Scott. Okay.
    Mr. Robb [continuing]. Forum for a discussion of targeting.
    Mr. Scott. Okay. We will leave it at that. But I do think 
that the geographical size of the country leaves some question.
    Mr. Robb. In a very general sense, that is one of the 
reasons that we are recommend that additional KC-135s be 
supplied, so that the----
    Mr. Scott. Yes, sir.
    Mr. Robb [continuing]. Credibility of the Israeli response 
to crossing a red line that they have laid down would be taken 
more seriously. Because you do have very significant distances, 
and the ability to strike and return without refuelers is very 
much in question.
    Mr. Scott. Absolutely. And we as a country cannot expect 
Israel to take this challenge on by themselves. We have got to 
stand by them. They are our true ally over there.
    I guess I say that to get to this next point. You have the 
U.S., you have Britain, you have France, you have Germany, and 
you have Russia and China all engaging in the talks right now 
in Moscow, if I am correct. If those countries can't influence 
Iran, who can have any influence on Iran?
    Mr. Albright. Well, they have influence on Iran. I mean, 
Iran would, I think, be much further along on nuclear weapons 
if that influence hadn't been exerted. And so I think there is 
a lot going on beyond the negotiations to slow them down and 
deter them from breaking out. So I think a lot is going on. 
Now----
    Mr. Scott. We are not just trying to slow them down, 
though. We are trying to stop them.
    Mr. Albright. No, that is right. And that is right, and 
that is the goal. Or prevent them, I mean, if they do make the 
break.
    But I think the expectation is that more pressure will be 
applied, that sanctions--from what I understand, the U.S. 
Congress is masters at developing sanctions on Iran. And I 
would expect more.
    Mr. Rademaker. I think, Congressman, my personal belief is 
that, if all those countries you named made this their highest 
priority and brought to bear, as President Obama said the 
United States would do, all elements of their national power to 
make sure Iran changed course, I think collectively those 
nations could succeed. The problem is that, even though they 
are engaged diplomatically, not all of those countries are 
using all elements of their national power to persuade the 
Iranians to change course.
    I mean, it is wonderful that on July 1st a European Union 
oil embargo is going to go into effect. But, you know, why is 
it, you know, the summer of 2012 before that has happened? 
Because in Europe there has been hesitation up until now to 
accept the economic costs that come from imposing that oil 
embargo. Now, thank goodness they have made the decision to 
move forward with that, but it is awfully late in coming.
    At the U.N. Security Council, there is certainly more that 
could be done against Iran----
    Mr. Scott. Let me----
    Mr. Rademaker [continuing]. But Russia and China have used 
their veto----
    Mr. Scott [continuing]. Interrupt, if I could, because I am 
down to a minute and a half. I apologize.
    They border seven countries, the Caspian Sea, and the Gulf 
of Oman. They share the Caspian Sea with Russia. I, quite 
honestly, think their nuclear threat is much greater to other 
countries than it is to the United States. And I have no doubt 
that if they get a weapon, they can get it out of that country 
and then probably into wherever they want.
    But there is a difference in talking and taking action. 
Would Russia and China, while they are willing to engage in 
talks, support the United States in an action that actually 
stopped the construction of a nuclear weapon in Iran?
    Mr. Robb. Well, obviously, if Russia and China were to be 
in full agreement, this whole discussion would probably be 
moot. The problem is that there are ongoing relationships with 
both countries that would be put in jeopardy by their taking a 
more aggressive stance. And so in the U.N. Security Council, 
the resolutions that actually get passed tend to be less 
intimidating toward Iran than the ones that--if you had those 
two superpowers in sync with the United States in terms of 
their understanding of the risks that a nuclear-capable Iran 
poses to the region and to the international community, we 
wouldn't probably be having this hearing today.
    The Chairman. The gentleman's time has expired.
    Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    Senator Robb, thank you for you and General Wald's 
continued attention to this issue and the work that you did. We 
shamelessly used it to introduce legislation to try to augment 
this effort to make sure that anyone who is even looking at all 
could see that we are serious about a military option, that we 
have the resources in place and the training and all of those 
other kinds of things.
    Mr. Robb. We noticed, and we thank you.
    Mr. Conaway. Your written testimony added some additional 
specificity to some of that. And we don't need to go through 
what it is, but is there something that--you talked about 
additional surface-to-air missiles, anti-submarines, 
prepositioning the strategic bombers from Diego Garcia.
    Is there something that has happened since your original 
report that led you to put this additional specificity in your 
written comments today, or is it more of the same?
    Mr. Robb. Well, you always look to what you have, what 
assets you have in place and whether or not they appear to be 
sufficient to fulfill whatever mission they are designed to 
support.
    Mr. Conaway. All right. Well, I do think that your work is 
helping continue to put a time-is-of-the-essence kind of cloak 
on all of this. Some of the comments on the other side I have 
disagreed with this morning, in which they seem to take a 
little more innocent view that this thing can be solved.
    All of us hold certain truths or certain ideas that we are 
willing to die for, willing to absorb just incredible 
deprivations in order to stick to those convictions. Is the 
idea of a nuclear power, a nuclear weapon of such a national 
identity for the Persians in Iran that it is one of those 
things that, at the end of the day, they are just simply never 
going to give that up no matter what we do to them?
    Mr. Robb. Well, I don't believe that the position of the 
international community is that it is an absolutely hopeless 
cause, if that is what you are----
    Mr. Conaway. Well, no, we will continue to sanction and we 
will continue in the military option. We will stop them, 
ideally, from getting one.
    But the idea that they would voluntarily give up this quest 
and the impact it has on their international standing, you 
know, at any point in time does anybody realistically think 
that--I mean, I am pro-life, and I am not giving that up, 
period, no matter what you do to me. I am a Christian. Jesus 
Christ is my personal savior. I am not giving that up for 
anything. That is one of those core beliefs.
    Is the core belief that they want a nuclear weapon, is it 
such a core belief with them that--and, as Rademaker said 
earlier, we can--I mean, the military option only takes it out 
for a short period of time--will they ever really give this up? 
Or is it just in the leadership, and the people themselves are 
not really that keen on it?
    Mr. Albright. Yeah, I don't see a united regime on that. I 
think we have seen constituencies, I mean, more the technical 
side, that appear to really want nuclear weapons. There are 
other constituencies that have questions about that. So I don't 
think they are united on the value of having nuclear weapons. I 
mean, I think they are only united on the desire to have the 
capability to do that.
    And I think they can--they may make a different decision 
down the road. Also, there may be personnel changes at the top 
of the whole hierarchy that could lead to a different decision. 
There are forces that do--you know, don't just want to be an 
isolated pariah state. So I think it is very hard to----
    Mr. Conaway. Well, all that is pretty obvious to us, and it 
ought to be pretty obvious to them. And most of us operate on 
the premise that we operate in our own best interests. These 
folks appear to be going counter to operating in their own best 
interests, because of the sanctions that have been put in place 
and are about to be put in place, all those kinds of things, 
and yet, they are really pretty recalcitrant about making----
    Mr. Robb. But that is the point of continuing to increase 
the sanctions. At some point, it is at least my personal belief 
that the powers that be in Tehran will come to the conclusion 
that it is in their long-term and short-term best interests to 
adopt a different course of action.
    I don't think they are going to--you used the word 
``voluntarily.'' I don't think anyone suggests they are going 
to voluntarily abandon the quest to be a nuclear-capable 
nation. They want to be in that club. And that is a pretty 
widely held view in the various factions that are identifiable 
inside Iran.
    But they are ultimately pragmatists, as most--even the 
leaders in other countries that appear to be irrational, at 
some point there is an element of pragmatism that comes in. And 
it is our hope that at some point that will permeate the 
thinking and they will arrange--I don't think it will come 
through a negotiated settlement. I think that they will take 
some action that causes the international community to say, we 
have accomplished our goal. We no longer feel as threatened. We 
are going to have to be eternally vigilant, but we don't have 
to continue to increase the capability and/or the threat of 
taking military action.
    And if, in fact, they go through with the exercise which 
has been offered, that they export all of their HEU, et cetera, 
and give intrusive 24/7 inspections, then the international 
community, certainly the United States, would be in a position 
then, and only then, to begin to roll back some of the 
sanctions and allow Iran to come into the world community as a 
credible player rather than a pariah state.
    Mr. Conaway. Well, again, thanks you for your work on this, 
and I hope you are spot-on right. Thank you.
    I yield back.
    The Chairman. Mr. Smith.
    Mr. Smith. I thank you very much for your testimony. I 
think this discussion has been very helpful.
    And I think where Iran is at right now is that, as you 
said, Mr. Albright, they would like to be nuclear-weapons-
capable because of the credibility it gives them. They would 
also like to not be a pariah state, and I think that is what 
makes them different from North Korea. I mean, North Korea was 
a pariah state, has been for a while. They didn't care. There 
was really nothing we could do to them. They starve 2 million 
of their people every year. They did that before they had a 
nuclear weapon, and they keep doing it.
    The hope with Iran is, given Iran's, you know, centuries of 
history and at different times being a relatively prominent 
player on at least the regional if not the global stage, they 
don't want to be a pariah state. And right now they are trying 
to figure out how to have their cake and eat it too. This is 
what they are trying to figure out.
    And what we have to make plain to them is that the cost is 
going--you will be a pariah state if you don't take a step 
back. Now, as you have all described very well, that is easier 
said than done, but I think that is what our policy goal has to 
be.
    And I thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    We have had a wide-ranging discussion. And I am thinking of 
one of the points that Mr. Turner was making, that if somebody 
tuned in at some point, we would be talking about lots of 
different actions that we would take against Iran for various 
things depending on how they are moving along on something that 
we really don't know. We think we know, we hope we know, but we 
can never know totally what they are doing.
    What I would like to ask, to kind of bring this back to the 
whole purpose of this hearing, is, what do you believe are the 
strategic consequences, what would they be for the United 
States and for our allies if Iran were to achieve a nuclear 
weapon capability?
    Mr. Robb. Mr. Chairman, we lay out what we believe are the 
strategic consequences in--really, in each of the papers, but 
the most recent one, in ``Stopping the Clock,'' we list a 
number of activities.
    Certainly, you have--the immediate neighborhood is going to 
feel compelled to take up its own nuclear programs, and so you 
are going to have a proliferation that would take place in the 
immediate community. You are going to have a great deal of 
interruption in terms of the international energy supply, given 
the fact that so much of the world's petroleum passes through 
the Strait of Hormuz, et cetera.
    You are going to have an instability which will be 
exacerbated beyond anything we are experiencing right now in 
terms of the economy. Most of Europe is very much on the edge 
right now. The United States is attempting to keep from being 
drawn into that same type of economic collapse that is 
occurring state by state in the European Union right now.
    All of these consequences are going to be enormous and are 
going to put any chance for a peaceful resolution of the long-
term interest of both the United States and the other major 
powers in that region at risk for a very long period of time. 
And the cost in individual lives and treasure would be 
enormous.
    It just--it is one of those situations where the status 
quo, if you can't--or if you have to choose between the near-
term costs of depriving Iran of a nuclear capability and the 
long-term costs of allowing them to have it, it is not a 
difficult choice. I think that is probably--I probably ought to 
leave it.
    Mr. Rademaker. I can think of no positive consequences of 
Iranian achievement of nuclear weapons capability or Iranian 
possession of a nuclear weapon.
    Senator Robb has pointed to one of the most serious 
consequences, which would be the unravelling of the nuclear 
nonproliferation regime as other countries felt threatened by 
the Iranian nuclear capability and felt they needed to take 
steps to protect themselves.
    Another very important and very dire consequence that I 
will highlight is the fact that Iran is already the world's 
most active supporter of international terrorism. And they act 
in a very unrestrained way already when it comes to promoting 
international terrorism. I personally believe that one of the 
attractions to the Iranian regime of having nuclear weapons is 
that it would increase their ability to proceed recklessly in 
the promotion of terrorism in their region and internationally.
    If you take what happened in 2006 in Lebanon as an example, 
there was an escalation between Israel and Hezbollah, which is 
an Iranian-backed terrorist group, in Lebanon. And it 
escalated. Iran--I am sorry, Israel sent forces into southern 
Lebanon. Hezbollah started firing increasingly long-range 
missiles at Israel. Those missiles were provided by Iran. But 
Iran had to be restrained in the degree of support it provided 
to Hezbollah because there was always the risk that Israel 
might ultimately hold Iran accountable and undertake some 
military action against Iran.
    I believe one of the reasons Iran would like nuclear 
weapons is they believe that if they had such weapons in a 
scenario like that, Israel would essentially lose that option. 
They would become fearful of using military force against the 
sponsor of these terrorist groups. And, as a result, Iran could 
be much more unrestrained in the level of support that it gave 
to such groups.
    And that is just one particular example, but I think 
worldwide you would see them feeling that they had a nuclear 
shield behind which they could hide and behave in an 
increasingly reckless manner in their support for international 
terrorism.
    Mr. Albright. I also view Iran with nuclear weapons as a 
very grave strategic threat to the United States.
    I would distinguish between having a nuclear weapons 
capability, which I would judge they have now, and we are 
living with it. So, I mean, we perceive it as particularly a 
threat if they cross the line and have nuclear weapons. What we 
have been talking about is if they seek those weapons, then we 
are going to try to stop them.
    Now, I think to be fair, though, I mean, it is--I think we 
need to start to consider, what if all this doesn't work out 
well? And I don't want to in any way encourage that as a 
policy, but I do think we need to start thinking through this. 
What if Iran does get nuclear weapons, you know, 2 or 3 years 
from now, and it is in the range of time that we are worried 
about, is we wake up and there has just been a nuclear test by 
Iran?
    And so I think while the policy should remain on preventing 
Iran from getting nuclear weapons, I do believe we need to 
start thinking through, what if they do? Because you just heard 
why that world is going to be so dangerous. But, unfortunately, 
if they do, we are still going to have to live in it. And we 
need to think through what are the U.S. responses to that 
world, while at the same time--again, I want to emphasize--not 
changing our current policy to prevent Iran from getting there.
    The Chairman. Well, that is an interesting idea. But our 
policy is based on what the Senator and Mr. Rademaker say. They 
gave some pretty positive reasons why it would be detrimental 
to society if they had nuclear weapons. And----
    Mr. Albright. I agree with that. And I agree with that.
    The Chairman. Fine. Then our policy probably shouldn't 
change. Our policy is that they do not--that we do everything 
possible to make sure that they do not get that capability. And 
that, I think, is the whole purpose of this hearing, is to 
strengthen that and to make sure that we have the capability to 
make sure that we don't have to change that policy. Because I 
think that if we back off from the policy that they do not 
attain nuclear capability, then the overall threat to the world 
is something we do not want to even contemplate.
    We realize that there are other countries around the world 
that have nuclear abilities, but none of them have expressed 
the bellicose nature of Iran as far as supporting terrorism and 
other things. And in that particular neighborhood, it could be 
unsettling for the whole world forever.
    And I think that this has been a good hearing. I appreciate 
you being here. I appreciate the work that you are doing on 
this. And I think that we need to move forward sustaining that 
policy and do whatever we can to support whoever the President 
is in making sure that we have the means necessary to make sure 
that that policy stays in place.
    Thank you very much.
    And that concludes this hearing.
    [Whereupon, at 12:17 p.m., the committee was adjourned.]



=======================================================================




                           A P P E N D I X

                             June 20, 2012
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             June 20, 2012

=======================================================================

      
              Statement of Hon. Howard P. ``Buck'' McKeon

              Chairman, House Committee on Armed Services

                               Hearing on

               Addressing the Iranian Nuclear Challenge:

                   Understanding the Military Options

                             June 20, 2012

    The House Armed Services Committee meets today to receive 
testimony from experts on the nuclear challenge from Iran. The 
expert panel includes former Senator Charles Robb, a task force 
co-chair of the National Security Project with the Bipartisan 
Policy Center; Mr. Stephen Rademaker, a task force member of 
the National Security Project with the Bipartisan Policy 
Center; and Mr. David Albright, the President of the Institute 
for Science and International Security. Gentlemen, thank you 
for joining us today.
    The Iranian nuclear program is among the most complex 
foreign policy and national security challenges that the United 
States faces today. Intensive diplomatic and economic steps 
focused on Iran's nuclear program have been undertaken over the 
last decade to dissuade Iran from pursuing a military nuclear 
program. Unfortunately, it does not appear that these efforts 
have succeeded in convincing the Iranian Government to abandon 
its military nuclear ambitions.
    The United States' stated policy remains that Iran should 
not possess a nuclear weapon, as reflected by President Obama's 
recent comments in which he stated: ``I think both the Iranian 
and the Israeli governments recognize that when the United 
States says it is unacceptable for Iran to have a nuclear 
weapon, we mean what we say.'' Moreover, President Obama has 
explicitly declared that his administration would use force--a 
``military component''--as a last resort to prevent Tehran from 
acquiring a bomb. However, this message has not always been 
consistent--across administrations--and unfortunately it is not 
clear that the Iranian regime is deterred by such statements.
    I personally agree that all elements of national power 
should be brought to bear to prevent Iran from obtaining a 
nuclear weapon. I certainly recognize that no military 
operation is without risk. But given the fact that the 
President has stated that military option may have to be 
utilized to thwart Iran from obtaining a nuclear weapon, it is 
the committee's responsibility to ensure that the military 
option is credible.
    Moreover, any consideration of U.S. military response to 
Iran's nuclear developments requires rigorous and thoughtful 
evaluation, which is why are holding this hearing today. If 
diplomacy and economic sanctions fail to stop Iran from 
obtaining a nuclear weapon capability, then a military option 
may be the only recourse. Therefore, it is critical to 
rigorously study and understand all facets of any military 
option, including how it supports our vital national security 
interests, its potential for effectiveness, its risks, Iran's 
potential responses, the implications for the region. Likewise, 
effective military capability in the region could be a useful 
deterrent and improve regional stability, negating the need for 
a military strike.
    Gentlemen, thank you for appearing before the committee 
today. I look forward to your testimony and insights into the 
nuclear challenge from Iran.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             June 20, 2012

=======================================================================

      
             RESPONSES TO QUESTION SUBMITTED BY MR. FORBES

    Mr. Robb and Mr. Rademaker. Regarding your question about the 
effect of defense cuts on the credibility of the U.S. military option, 
there's no question sequestration presents enormous challenges to U.S. 
military forces, and that's one of the reasons it's especially 
important right now that we not appear to relax our guard or our 
apparent willingness to follow through with a military option in the 
event it becomes necessary. The United States has already undermined 
its credibility when it comes to preventing a nuclear-capable Iran; 
haphazard defense cuts like the sequester will only exacerbate the 
perception--in Tehran and among our own allies--that the credibility of 
U.S. commitments is declining. In reference to your question about 
potential tradeoffs between augmenting U.S. Fifth Fleet and Air Force 
capacity on the one hand, and the DOD Strategic Guidance's emphasis on 
rebalancing toward the Asia-Pacific region on the other, the sequester 
will affect both by forcing the military to either rely on older 
existing weapons systems or make do with fewer of the new capabilities 
the Pentagon deems necessary. That being said, Iran's continued 
progress toward nuclear weapons capability is the most immediate 
national security challenge facing the United States. Potential threats 
to U.S. interests in the Asia-Pacific region are less pressing and/or 
of lower magnitude; this realignment of U.S. global force posture is a 
grand strategic shift that will occur over the medium-to-long-term, 
while Iran's rapid recent advances means time is running out. Dealing 
with the Iranian threat must take precedence over the serious, but more 
gradual, changes required to address threats in the Asia-Pacific 
region. This applies both to augmenting U.S. naval and air capabilities 
in the Middle East, and to prepositioning supplies in that region 
(these supplies could be transferred to Asia-Pacific later).
    Moreover, many of the measures we recommend in a BPC task force 
paper to augment U.S. Fifth Fleet and Air Force capacity can be 
accomplished by reprogramming funds in the FY2011 Omnibus Spending 
Bill, instead of drawing funds from the military's priorities for 
FY2012 and FY 2013 spending. In fact, some of these measures--such as 
strengthening mine countermeasures (MCM) capabilities in the region--
are already being undertaken.
    Regarding your question about leaks, leaks about capabilities, 
plans and other activities that might be under consideration ought to 
be avoided at all costs. They don't help the United States in any way, 
shape or form. [See page 23.]

    Mr. Albright. [The information was not available at the time of 
printing.] [See page 23.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. TURNER
    Mr. Albright. [The information was not available at the time of 
printing.] [See page 27.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MR. BROOKS
    Mr. Robb. The arbitrary nature of sequestration will hurt the U.S. 
military's ability to fulfill its missions, including providing a 
credible deterrent to aggression from a range of threats. However, the 
United States lacks the key elements of a successful containment 
strategy for dealing with Iran if and when it gains nuclear-weapons 
capability: credibility; robust, reliable and coordinated allies; and a 
deterrable enemy. U.S. credibility is hampered by the lack of certain 
response--officials from successive Administrations have failed to 
punish Iranian transgressions of previous redlines, including 
converting yellowcake into uranium and spinning new centrifuges. 
Imagining a nuclear-capable Iran presupposes that Tehran has crossed an 
even more significant line in the sand. Furthermore, Washington has 
repeatedly downplayed the viability of the U.S. military option. Thus 
Tehran has little reason to believe the United States would punish 
aggression by Iran if the latter had the cover of a nuclear capability 
or weapon.
    The United States also lacks reliable allies to help deter a 
nuclear-capable Iran. With the exception of Israel, U.S. Middle Eastern 
allies are not strong enough to deter aggression with any certainty. 
Furthermore, the United States cannot bolster its credibility or 
compensate for weak allies by creating tripwires to trigger automatic 
responses to Iranian aggression, especially if U.S. forces pivot away 
from ground units in the Middle East to naval and air forces in the 
Asia-Pacific region.
    Finally, the messianic leadership of the Islamic Republic may not 
be ideological to the point of national suicide, but historically it 
has pursued expansive regional aspirations. These have proven difficult 
enough to contain even when Iran lacked a nuclear deterrent and its 
regime was not dominated by hardliners. Moreover, the intentions and 
motivations of the Iranian regime--especially those individuals in 
charge of any nuclear weapons--remain opaque to the United States.
    Regarding your question about the sequester's effect on a U.S. 
military option, there's no question that you can't cut down 
significantly in all of the elements of force that are necessary to 
carry out our responsibilities in this area and elsewhere around the 
world without severe strain. Because the current and previous 
Administrations have used the word ``unacceptable'' to describe a 
nuclear Iran, U.S. credibility is now at stake--this implies a red line 
requiring the United States to either take military action or lose 
credibility. Sequestration could undermine perceptions of U.S. resolve 
in addition to cutting forces and spending, and thus damage 
credibility. [See page 30.]

    Mr. Rademaker. [The information was not available at the time of 
printing.] [See page 29.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             June 20, 2012

=======================================================================

      
                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. Do you view Iran's recent announcement that they are 
pursuing development of a nuclear submarine as a complicating factor to 
international efforts to constrain Iran's highly enriched uranium 
production?
    Mr. Robb. I would echo Mr. Rademaker's comment that Iran has sought 
pretexts to enrich uranium to higher levels for a long time, and I 
don't see how developing a nuclear-powered submarine provides such a 
justification. Tehran's announcement does point to a larger issue we 
cover in our report, which is Iran's long history of acting inimically 
to U.S. interests in the Middle East. In addition to its opposition to 
the Middle East peace process and support for terrorism and proxy 
warfare across the region, Iran is actively pursuing naval and 
ballistic missile capabilities to threaten U.S. forces and allies. 
Announcing plans to develop a nuclear-powered submarine could perhaps 
been seen as a longer-term aspect of this military buildup.
    Mr. Langevin. Any potential military action would of course not 
occur in a vacuum, but would greatly affect an extremely complex 
geopolitical situation in the broader region. How might a strike affect 
our work with nations such as Russia and China in other areas--for 
example, the conflict in Syria? Can you walk us through the 
ramifications of a strike on Iran for our allies in the region--most 
specifically, Jordan, Turkey, Saudi Arabia, and Iraq?
    Mr. Robb. While Syria is a concern, the BPC Iran Initiative (which 
I co-chair) has not addressed the potential effects of the military 
option on such issues.
    In reference to your question about the ramifications of a strike 
on Iran for our regional allies, our BPC Iran Initiative has discussed 
the potential consequences in our 2010 and 2012 reports on Iran's 
nuclear program. While it would be difficult to predict accurately the 
specific outcomes of any strike, Iran could retaliate by attempting to 
attack Persian Gulf energy installations or fulfill its threat to close 
the Strait of Hormuz. These actions would imperil Iraq and our GCC 
allies. Iran's Islamic Revolutionary Guard Corps (IRGC) might also 
attempt to unleash its proxy forces--most worryingly, Lebanese 
Hezbollah--against Israel and other U.S. regional allies. There would 
be the potential for any such conflict to spill over to Jordan, Turkey 
and elsewhere in the region. This could be aggravated by the 
instability in Syria, which is Iran's main Arab state ally and Tehran's 
primary lifeline to Hezbollah.
    In the immediate aftermath of a strike, U.S. policymakers would 
have to make crystal clear that the United States will stand by our 
regional allies in any conflict with Iran. The Pentagon should augment 
its military capabilities in the region--particularly air and naval 
forces--to protect the Strait of Hormuz, reassure allies and prevent or 
respond to Iranian retaliation. The President would also need to make 
clear to the world that Iran's actions have been in longstanding 
violation of United Nations resolutions and the Nuclear Non-
Proliferation Treaty (NPT).
    Beyond managing a post-strike crisis, Washington would need to work 
with these allies to strengthen their defenses against possible Iranian 
and/or proxy counterattacks. U.S. policymakers should also be prepared 
to release oil from the Strategic Petroleum Reserve (SPR), work closely 
with Saudi Arabia to produce more oil and cooperate with regional 
allies to ensure maximum possible oil exports through the Persian Gulf, 
Turkey or the Red Sea.
    These costs--of a strike and its aftermath--must be weighed against 
the costs of living with a nuclear-capable Iran. A nuclear-capable Iran 
would threaten U.S. and regional security and set off a proliferation 
cascade across the Middle East. Iran and Israel would be locked into an 
unstable confrontation resembling a perpetual Cuban Missile Crisis. 
Iran would be in a position to transfer nuclear materials to its 
terrorist proxies, threaten Israel's existence, embolden radicals, 
increase its opposition to the Middle East peace process and 
destabilize moderate Arab regimes. It would also seek to dominate the 
energy-rich Persian Gulf emirates and OPEC, which would heighten the 
risk to secure oil supplies. This would have serious negative 
implications for the U.S. economy: every $10 rise in annual oil prices 
equates to a nearly 0.5 percent decline in U.S. GDP.

    Mr. Langevin. As you know, additional U.S. sanctions are scheduled 
to go into place on June 28th, targeted against Iran's central bank, 
and an EU oil embargo will begin on July 1st. It is reasonable to 
assume that these sanctions will compound the difficulties experienced 
by the Iranian regime. How long, in your view, will it take for these 
additional sanctions to reach full effect?
    Mr. Rademaker. The effects of these sanctions are already being 
felt. European Union consumers of Iranian oil--accounting for roughly 
one-fifth of Iran's exports in 2011--have already diminished to near-
zero as member countries reduced purchases in advance of the E.U. oil 
embargo beginning July 1. Similarly, Iran's major Asian buyers (China, 
India, Japan and South Korea, which combined for 70 percent of Iran's 
exports in 2011) cut imports from Iran to receive sanctions waivers 
from the United States. These customers will likely increase their 
purchases over the second half of 2012. Therefore, in terms of their 
impact on the main source of Tehran's revenue, the high-water mark for 
U.S. and E.U. sanctions may have already occurred, just as the 
sanctions officially come into force.
    Our Task Force maintains that sanctions against Iran can be a 
useful tool in pressuring Iran and demonstrating resolve, as long as 
they are enforced completely and have a near-term deadline. Because 
they are not fully enforced, and because they are not part of a 
comprehensive triple-track strategy, these sanctions may lull 
policymakers into the false belief of progress and thus waste more time 
as Tehran gets closer its nuclear goal.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FRANKS
    Mr. Franks. Statements by the intelligence community seem to 
indicate that there is a consensus of belief that Iran has not yet 
decided to make a nuclear bomb. How confident are you in this 
assessment and do you believe the intelligence community will 
accurately predict if and when Iran does make that decision?
    Mr. Robb and Mr. Rademaker. Assuming it acquires all the necessary 
components, it may be difficult to discern whether, or when, Iran 
decides to actually assemble a working nuclear bomb. Our Iran 
Initiative at BPC maintains that Iran is pursuing--and advancing 
toward--a nuclear weapons capability. Iran is most likely to amass the 
components of a nuclear device without assembling them or conducting a 
test explosion, thus remaining ``a screwdriver's turn'' away from a 
weapon, while promoting ambiguity about its true intentions and status. 
In this way, Tehran can gain the benefits of a de facto nuclear 
deterrent without incurring legal and political repercussions. It is 
this eventuality that the United States should be aiming to prevent, as 
suggested by bipartisan resolutions in the U.S. Senate and House of 
Representatives.
    The difference in language between ``developing a nuclear weapon'' 
and achieving ``nuclear weapons capability'' is significant, so the 
confusion is potentially dangerous. A country can be considered to have 
developed a nuclear weapon once it has assembled the three main 
components of a nuclear weapon and successfully tested it. First, 
fissile material: either highly enriched uranium (HEU) or plutonium, 
that can release massive, destructive amounts of energy. Second, the 
device, or ``weapon,'' which creates the nuclear explosion by 
triggering a nuclear chain reaction in the fissile material. Third, a 
delivery mechanism--bomb, missile, or some unconventional means--that 
gets the weapon to its target. A nuclear weapons capability is achieved 
when a country has all the requisite technology and components, but has 
not yet assembled them or tested a weapon. Iran already possesses 
delivery mechanisms, both in the form of ballistic missiles capable of 
carrying nuclear payloads and an extensive network of terrorist 
organizations that could deliver a nuclear weapon by other, less 
conventional means. The International Atomic Energy Agency (IAEA), 
which is tasked with monitoring and reporting Iran's enrichment 
activities, has expressed serious concerns about Iran's efforts to 
develop a nuclear explosive device, including Tehran's denial of access 
to a military base where explosives testing for a nuclear device may 
have occurred. More important, Iran's progress toward a nuclear weapons 
capability is more easily verified than weaponization, and it is its 
enrichment program that is the best indicator of Iran's progress toward 
nuclear weapons capability. Fissile material production has 
historically been the most difficult and time-intensive hurdle to 
developing nuclear weapons. Thus, if Iran begins producing highly 
enriched uranium, policymakers will have to assume Iran has achieved 
nuclear weapons capability. Once Iran acquires fissile material, U.S. 
policymakers, military leaders and strategic planners should assume 
that Tehran has a nuclear weapons capability, even if it chooses not to 
test its device. U.S. intelligence agencies have never before predicted 
any country's initial test of a nuclear weapon. The Soviet Union's 
nuclear test in 1949, France's test in 1960, China's acquisition of 
nuclear bombs in 1964, India's tests in 1974 and 1998, and advanced 
Libyan, Syrian and Iraqi programs each surprised the U.S. intelligence 
community. U.S. government agencies still lack a robust capability to 
detect the development or transfer of nuclear weapons capabilities by 
Iran. Accordingly, if Iran sought to assemble a nuclear weapon, we 
would likely only detect it after the weapon was tested, by which time 
it would be too late. If the administration's intent is to prevent a 
nuclear Iran, it should draw a red line that is clear, verifiable and 
preventable before it is too late. The red line should be nuclear 
weapons capability, not the imperceptible turning of the screwdriver to 
assemble a weapon.
    Mr. Franks. What is the current state of Iranian launch vehicle 
technology and what can we do to eliminate or degrade that technology 
to ensure it is not used to deliver a nuclear weapon whether by ICBM, 
or MRBM launched from an offshore ship?
    Mr. Robb and Mr. Rademaker. Iran is known to possess the largest 
deployed arsenal of short- (SRBM) and medium-range (MRBM) ballistic 
missiles in the Middle East. These vehicles are capable of reaching 
targets across the Middle East, South Asia and Eastern Europe, 
including U.S. and allied military installations. I don't think any of 
us have access to current intelligence on what exactly Iran is doing to 
develop intermediate- (IRBM) or intercontinental-range (ICBM) ballistic 
missiles that could strike Western Europe or the U.S. homeland. We only 
know that they've consistently sought missiles with increasingly 
greater ranges, as evidenced by their February 2010 test launch of a 
satellite rocket. They are likely years, if not a decade or more, away 
from developing booster rockets capable of carrying an ICBM to the U.S. 
eastern seaboard. Iran is not known to possess any submarine-launched 
ballistic missile (SLBM) capability; its Russian-made Kilo-class diesel 
submarines cannot launch such weapons. Its entire ballistic missile 
arsenal must instead be launched from land-based silos and road-mobile 
launch systems.
    These missiles could be used as delivery vehicles for a nuclear 
weapon, if Iran develops a nuclear warhead and sufficient fissile 
material for a bomb. The International Atomic Energy Agency (IAEA) 
estimates Iran's enriched uranium stockpile is enough to produce two 
nuclear bombs, with further enrichment. The IAEA also stated it 
believes Iran has conducted work on an explosive device that could be 
utilized in a warhead.
    To eliminate or degrade Iran's launch vehicle technology, the 
United States and its international partners have passed U.N. Security 
Council Resolutions sanctioning Iran's ballistic missile program: 1696 
(2006), 1737 (2006), 1747 (2007), 1803 (2008), 1835 (2008) and 1929 
(2010). The United States has also deployed, or supported the 
deployment of, a range of missile defense capabilities to deter or deny 
Iranian ballistic missile launches against potential U.S. and allied 
targets. These include: two Aegis-equipped U.S. Navy cruisers in the 
Persian Gulf; Patriot interceptor batteries in Bahrain, Israel, Kuwait, 
Qatar, Saudi Arabia and the United Arab Emirates; X-band missile-
defense radars in Israel, Qatar and Turkey; and U.S. funding for 
Israel's Arrow missile defense system. Moreover, in May 2012 the House 
of Representatives passed H.R. 4133 (The United States-Israel Enhanced 
Security Cooperation Act of 2012). In addition to echoing our BPC task 
force paper's strong recommendations on the necessity of bolstering 
Israel's military option by providing it with aerial refueling tankers 
and bunker busting munitions, this legislation called on the United 
States to assist Israel in procuring the Iron Dome missile defense 
system to intercept rockets and artillery launched by Iranian proxy 
forces in Lebanon, Gaza and elsewhere.
    Ultimately the United States can only eliminate this threat by 
demonstrating an ironclad resolve to prevent a nuclear-weapons capable 
Iran, ideally through a peaceful, diplomatic resolution. Such a 
negotiated solution would include stipulations requiring Iran to make 
its weaponization activities much more transparent to the international 
community and answer the questions raised by the IAEA about its work on 
weapons design. These concerns of the international community have been 
captured in the U.N. Security Council Resolutions listed above.
    Mr. Franks. How are we responding, and might we better respond, to 
China's and India's circumventing economic sanctions by using their own 
currencies rather than dollars to buy Iranian oil?
    Mr. Robb and Mr. Rademaker. We applaud the work of Congress and the 
Administration to enact tough sanctions against financial institutions 
transacting with the Central Bank of Iran, the National Iranian Oil 
Company and the Naftiran Intertrade Company. Since coming into effect 
at the end of 2011, the threat of such sanctions has forced consumers 
of Iranian oil exports to avoid sanctions by reducing purchases, using 
non-convertible currencies and bartering to finance those purchases. 
This has devalued Iran's currency (rial) and cut into its oil export 
revenue. However, despite being tough, these sanctions are weakened by 
loopholes allowing for waivers for countries who significantly reduce 
their purchases of Iranian oil--even if they don't fully halt imports 
from Iran. Tehran is hurting financially, but its nuclear program has 
not slowed. This lulls policymakers into the false belief of progress, 
thus wasting more time as Tehran gets closer to its nuclear goal.
    At this point, additional pressure on the Iranian regime to 
negotiate in good faith can come from U.S. efforts to underscore that, 
if all else fails, it is prepared and willing to launch an effective 
strike against Iran's nuclear program. Boosting the visibility and 
credibility of the military option through an effective information and 
messaging strategy, economic preparations and military readiness 
activities would help persuade buyers of Iran's oil, such as China, to 
support U.S. sanctions more fully as a way to peacefully resolve this 
crisis or face the possibility of a significant disruption of oil 
supply from the Persian Gulf. Strengthening Israel's ability to mount 
an effective attack on Iran's nuclear facilities would serve the same 
purpose.
    Mr. Franks. Do the sanction waivers provided by the Administration 
to a number of countries degrade the impact and effectiveness of the 
sanctions on Iran? Should those waivers be revoked?
    Mr. Robb and Mr. Rademaker. The waivers provided by the 
Administration degrade the impact of sanctions by allowing the main 
buyers of Iranian crude--China, India, Japan and South Korea--and 
others to continue importing oil from Iran, albeit at reduced levels. 
The threat of U.S. and E.U. sanctions caused Iran's oil exports to 
contract 15 percent year-on-year in the first half of 2012, but this 
decrease would likely be even greater if the Administration did not 
provide waivers to countries that must only pledge to decrease imports 
from Iran by 20 percent.
    While the waivers thus affect the impact of U.S. sanctions, this is 
separate from the issue of the actual effectiveness of such measures. 
Our Task Force supports tough sanctions as long as the United States 
enforces them completely and sets a near-term deadline for them to be 
effective. Neither the Obama nor Bush Administrations did this. Even if 
they had, the dual approach of diplomacy and sanctions would not be 
enough. Creating additional leverage for a peaceful, viable negotiated 
solution requires the United States to pursue the triple-track approach 
called for in our BPC Task Force reports: diplomacy, robust sanctions 
and credible, visible preparations for a military option of last 
resort.
    Mr. Franks. Will U.S. national security be seriously undermined if 
the U.S. accepts a policy of containment of a nuclear Iran?
    Mr. Robb and Mr. Rademaker. As we argue in our BPC Task Force 
reports, we believe that a nuclear-weapons capable Iran cannot be 
contained. Even if all the necessary elements of a containment strategy 
were in place--U.S. credibility; robust, reliable and coordinated 
allies; and a deterrable enemy in Tehran--this could not limit the 
negative eventualities sparked by an Iranian breakout.
    The most worrying consequences of a nuclear weapons-capable Iran 
would be: a proliferation cascade across the Middle East, which would 
effectively end the international nonproliferation regime; a sustained 
spike in global oil prices, which would negatively impact the fragile 
U.S. economy; an emboldened and more secure sponsor of terrorism, which 
would put Tehran in a position to transfer nuclear materials to its 
extremist allies; and an unstable Iran-Israel confrontation resembling 
a perpetual Cuban Missile Crisis, which would almost certainly draw in 
the United States.

    Mr. Franks. How are we responding, and might we better respond, to 
China's and India's circumventing economic sanctions by using their own 
currencies rather than dollars to buy Iranian oil?
    Mr. Albright. [The information was not available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. KISSELL
    Mr. Kissell. What is the stance towards Iran's Nuclear endeavors 
from their regional and bordering nations?
    Mr. Robb and Mr. Rademaker. The United States' Arab and Israeli 
allies very clearly perceive a nuclear Iran as an existential threat, 
as revealed by the November 2010 WikiLeaks publication of secret U.S. 
diplomatic cables. In conversation with U.S. officials, leaders from 
Israel and the United Arab Emirates (U.A.E.) compare the Iranian threat 
to that posed by Hitler in the 1930s, and warn of a proliferation 
cascade in the region if Iran gains nuclear capability. Even without a 
nuclear-capable Iran, Saudi Arabia's King Abdullah and senior Egyptian 
military and Kuwaiti leaders express fear about growing Iranian 
influence in Iran and Lebanon and Tehran's ability to stoke sectarian 
violence across the region.
    U.S. allies are thus exhorting the United States to increase 
pressure on Iran, including through the use of force. Saudi King 
Abdullah urged the United States to ``cut off the head of the snake,'' 
while U.A.E. officials call on the United States to communicate red 
lines to Iran and warn that sanctions will be insufficient. For years 
Israeli officials, including Prime Minister Benjamin Netanyahu and 
Defense Minister Ehud Barak, have publicly stated they will keep all 
options on the table--including preemptive military action--to prevent 
or delay Iran's achievement of nuclear weapons capability.

    Mr. Kissell. What is the stance towards Iran's Nuclear endeavors 
from their regional and bordering nations?
    Mr. Albright. [The information was not available at the time of 
printing.]
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. HANABUSA
    Ms. Hanabusa. In your testimony, you say that of the three-prong 
approach to Iran, our military option is underdeveloped. What is the 
benchmark being used to judge that? Precisely what would be needed to 
ensure adequate capability?
    Mr. Robb and Mr. Rademaker. The benchmark is sufficient leverage to 
induce Iranian concessions in its negotiations with the P5+1 that would 
enable a peaceful and credible negotiated settlement of its nuclear 
weapons program. History shows that the best chance for inducing 
Iranian concessions is when its leadership faces a dire military 
threat. However, since 2010 the United States and its P5+1 negotiating 
partners have in effect pursued a dual-track approach of diplomacy and 
sanctions toward Iran. This has been insufficient to compel Tehran to 
negotiate in good faith, and instead offers the regime an opportunity 
to drag out negotiations as a delaying tactic to advance its nuclear 
weapons efforts. Throughout this period, Iran continues to ignore U.N. 
resolutions, threatens to wipe out our strongest ally in the region, 
enriches uranium faster than ever and to ever higher levels, tests more 
effective centrifuge models, undertakes operations at a previously 
undisclosed underground facility and continues its weaponization 
activities.
    With the exception of specifying what munitions we ought to sell to 
Israel to shore up their capability, our BPC Task Force has not tried 
to specify how many specific platforms or weapons the United States 
would need. We think that ought to come from the military commanders in 
the area, in consultation with the civilian leadership. With that in 
mind, our Task Force recently issued a paper laying out a variety of 
steps U.S. policymakers should undertake to create additional leverage.
    Ms. Hanabusa. When you say that without ramping up our forces in 
the region we should supply Israel with the full support needed to 
counter an Iranian nuclear threat, what precisely would be needed to 
meet the full support you address?
    Mr. Robb and Mr. Rademaker. There are three principal means by 
which the United States can usefully strengthen Israel's strike 
capabilities against Iranian nuclear facilities: by transferring to it 
three KC-135 refueling tankers and 200 GBU-31 advanced bunker busters, 
and by upgrading Israel's anti-missile defense systems.
    The House of Representatives should be commended for passing H.R. 
4133 (The United States-Israel Enhanced Security Cooperation Act of 
2012). In addition to echoing our task force paper's strong 
recommendations on the necessity of bolstering Israel's military option 
by providing it with aerial refueling tankers and bunker busting 
munitions, this legislation called on the United States to assist 
Israel in procuring the Iron Dome missile defense system to intercept 
rockets and artillery launched by Iranian proxy forces in Lebanon, Gaza 
and elsewhere.

    Ms. Hanabusa. In your response to a question during the hearing, 
you said that Iran has not responded to any international requests to 
stop their nuclear program besides the time when the U.S. invaded Iraq. 
If this is the case, then you seem to be inferring that military 
intervention or the imminent threat of military intervention is needed 
to stop Iran's nuclear program. Why then in your testimony, do you 
believe that diplomacy and sanctions could still have an impact in this 
situation?
    Mr. Rademaker. The best way to prevent a nuclear Iran is for the 
United States to lead and demonstrate its resolve to do whatever is 
necessary, including taking military action. This is why our BPC Task 
Force endorses the triple-track approach of diplomacy, robust 
sanctions, and credible, visible preparations for a military option of 
a last resort. At this late date, it is only the threat of force, 
combined with sanctions, that affords any realistic hope of an 
acceptable diplomatic resolution.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MRS. ROBY
    Mrs. Roby. Given the asymetric tactics we anticipate Iran will 
employ in and around the Strait of Hormuz, would you address the 
specific threat posed by the C-802 Qader sea-skimming missile and our 
ability to defend against it?
    Mr. Robb. Iran's acquisition of the C-802 Qader anti-ship cruise 
missile is emblematic of a larger shift in the country's naval warfare 
doctrine, capabilities and command structure from a surface fleet 
controlled by the traditional navy toward an unconventional force 
dominated by the Islamic Revolutionary Guard Corps (IRGC). This new 
approach utilizes asymmetric capabilities and tactics--large numbers of 
anti-ship mines, cruise missiles, and swarming high-speed patrol and 
light attack craft--to threaten shipping, overwhelm enemy vessels and 
deny access to U.S. naval units operating in the Persian Gulf and Gulf 
of Aden.
    Our BPC Task Force has recommended the United States procure and 
deploy force protection munitions and other systems to reinforce 
existing U.S. naval capabilities in the Fifth Fleet's area of 
responsibility, including surface-to-air missiles, ship gun 
modifications and ammunition and electronic and cyber warfare support. 
The Task Force has not tried to specify how many specific platforms or 
weapons the United States would need. We think that ought to come from 
the military commanders in the area, in consultation with the civilian 
leadership.
    In the larger picture, such measures are an important part of what 
must be a broader spectrum of credible military readiness activities. 
Boosting the visibility and credibility of the military option 
strengthens the chance for sanctions and diplomacy to succeed in 
bringing about a peaceful resolution to the standoff over Iran's 
nuclear program.
    Mrs. Roby. Given the asymmetric tactics we anticipate Iran will 
employ in and around the Strait of Hormuz, would you address the 
specific threat posed by the Russian Kilo Class and North Korean Midget 
Class submarines and our ability to defend against it?
    Mr. Robb. Along with anti-ship mines, cruise missiles and swarming 
high-speed patrol and light attack craft, Iran's submarine fleet is a 
key element of its anti-access/area denial strategy to prevent the U.S. 
Navy from projecting power into the Persian Gulf region.
    With this threat in mind, our BPC Task Force has recommended the 
United States procure and deploy force protection munitions and other 
systems to reinforce existing U.S. naval capabilities in the Fifth 
Fleet's area of responsibility, including anti-submarine warfare (ASW) 
capabilities and electronic and cyber warfare support. The Task Force 
has not tried to specify how many specific platforms or weapons the 
United States would need. We think that ought to come from the military 
commanders in the area, in consultation with the civilian leadership.
    In the larger picture, such measures are an important part of what 
must be a broader spectrum of credible military readiness activities. 
Boosting the visibility and credibility of the military option 
strengthens the chance for sanctions and diplomacy to succeed in 
bringing about a peaceful resolution to the standoff over Iran's 
nuclear program.

    Mrs. Roby. Is there any credible evidence that Iran could acquire 
an S300 Air Defense System and if so potentially from who?
    Mr. Robb and Mr. Rademaker. There does not appear to credible 
evidence Iran could acquire such a system at the current time, 
especially since the passage of U.N. Security Resolution 1929 (June 
2010), which banned the sale of missile systems (among other weapons) 
to Iran. However, Iran appears to desire strongly the S-300 for its 
advanced surface-to-air missile capabilities which could potentially 
deter or deny air strikes on its nuclear program.
    Russia produces the S-300 system and has exported it to more than a 
dozen, primarily former communist bloc countries and their allies. 
Rumors occasionally surface of S-300 sales from these countries to 
Iran, most recently from Russia in 2009 and Belarus in 2010. However, 
there is no evidence of such transfers occurring, or of Iran possessing 
the S-300 or any comparable system.
    While the S-300 would strengthen Iran's ability to defend its 
nuclear sites against air attack, this should not obscure the fact that 
Tehran's nuclear program has actually accelerated in recent years 
without such defenses. Moreover, the regime has long acted inimically 
to U.S. interests, even as its nuclear program remains vulnerable to an 
effective surgical strike by the United States.
    Mrs. Roby. How does the Iranian Bavar 373 System compare with the 
Russian S300 system?
    Mr. Robb and Mr. Rademaker. Iran has claimed to develop a domestic 
replacement for the S-300, which it refers to as Bavar 373. While our 
Task Force has not analyzed Iran's air-defense capabilities or defense-
industrial capacity in depth, Tehran's claims to produce such a system 
would be in keeping with its well-established intentions to pursue a 
nuclear weapons capability.

    Mrs. Roby. Is there any credible evidence that Iran could acquire 
an S300 Air Defense System and if so potentially from who?
    Mr. Albright. [The information was not available at the time of 
printing.]
    Mrs. Roby. How does the Iranian Bavar 373 System compare with the 
Russian S300 system?
    Mr. Albright. [The information was not available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SPEIER
    Ms. Speier. Sanctions seem to be bringing Iran back to the 
negotiating table, and at least somewhat increasing their willingness 
to grant the IAEA access to Parchin and other facilities. Would a 
strike make Iran more likely to cooperate with the IAEA?
    Mr. Robb and Mr. Rademaker. It is the belief of our BPC Task Force 
that the dual approach of diplomacy and sanctions simply has not proved 
to be enough to compel Iran to negotiate in good faith over its nuclear 
weapons program. While our Task Force does not have a position on 
whether a military strike would make Iran more likely cooperate with 
the IAEA, preventing Iran from achieving nuclear weapons capability 
requires demonstrating resolve to do whatever it takes to achieve that 
goal. At this late date it is only the threat of force, combined with 
sanctions and diplomacy, that affords any realistic hope of an 
acceptable diplomatic solution to Iran's pursuit of nuclear weapons 
capability.

    Ms. Speier. Do you believe threats of military action are helping 
negotiations?
    Mr. Albright. [The information was not available at the time of 
printing.]
    Ms. Speier. What impact would a strike likely have on the 
international community's ability to access and monitor Iran's 
capabilities?
    Mr. Albright. [The information was not available at the time of 
printing.]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
